              Report No. D-2011-104                              September 8, 2011




      Pricing and Escalation Issues Weaken the
 Effectiveness of the Army Contract With Sikorsky to
        Support the Corpus Christi Army Depot




                                                                                         ,
                                                                             . ,~ "

                                                Special Warning
This report contains contractor information that may be company confidential or proprietary. Section 1905, •
title 18, United States Code, and section 423, title 41, United States Code, provide specific penalties for the
unauthorized disclosure of company confidential or proprietary information. You must safeguard this report
in accordance with DoD Regulation 5200.1-R.
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC                       Army Materiel Command
AMCOM                     Army Aviation and Missile Life Cycle Management Command
BLS                       Bureau of Labor Statistics
CCAD                      Corpus Christi Army Depot
DCAA                      Defense Contract Audit Agency
DCMA                      Defense Contract Management Agency
DLA                       Defense Logistics Agency
FAR                       Federal Acquisition Regulation
GAO                       Government Accountability Office
NSN                       National Stock Number
OIG                       Office of Inspector General
TELSS                     Technical, Engineering, and Logistical Services and Supplies




                                 FOR OFFICIAL USE ONLY
                                      INSPECTOR GENERAL
                                     DEPARTM ENT OF DEFENSE
                                       400 ARM Y NAVY DRIVE
                                  ARLINGTON, VIR GINIA 22202-4704



                                                                                September 8, 20 II

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Pricing and Escalation Issues Weaken the Effectiveness of the Army Contract
         With Sikorsky to Support the Corpus Christi Army Depot (Report No. D-20 11-1 04)

We are providing this report for review and comment. We calculated that Sikorsky charged the
Army $11.8 million (51.4 percent) more than fair and reasonable prices for 28 parts. In addition,
AMCOM will pay excessive escalation of$21.0 million over the contract period because
contract escalation was not tied to an economic index . This report is one of two reports
examining the Army contract with Sikorsky to support Corpus Christi Army Depot. We
considered management comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that recommendations be resolved promptly. The comments
from the Deputy to the Commanding General, AMCOM were only partially responsive.
Therefore, we request additional comments on Recommendations 2.b(I), 2.b(3), 2.b(4), 2.b(7),
2.b(8), and 2.b(9) by October II, 20 II.

Ifpossible, send a .pdffile containing your comments to audacm@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the ISignedl symbo l in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Henry F.
Kleinknecht at (703) 604-9324 (DSN 664-9324) or                            at (703) 604-
(DSN 664-        .




                                              Deputy, Assistant Inspector General
                                              Acquisition and Contract Management



                                     SPECIAL WARNING
This report contains contmctor information that may be company confidential Or
propl·ietary. Section 1905, title 18, United States Code, and section 423, title 41, United
States Code, provide specific penalties for the unauthorized disclosure o( company
confidential or proprietary information, You must safeguard this report 'in accordance
with DoD Regulation 5200.1-R.




                                 FOR OFFICIAL USE ONLY
Report No. D-2011-104 (Project No. D2010-D000CH-0077.001)                  September 8, 2011

               Pricing and Escalation Issues Weaken the
               Effectiveness of the Army Contract With Sikorsky
               to Support the Corpus Christi Army Depot

What We Did                                             Recommendations,
We evaluated the Army Aviation and Missile              Management Comments, and
Life Cycle Management Command (AMCOM)
material purchases from Sikorsky Aircraft
                                                        Our Response
Corporation (Sikorsky) supporting the Corpus            Among other recommendations, AMCOM
Christi Army Depot (CCAD) to determine                  officials need to correct prices and seek refunds
whether the partnership agreement effectively           totaling about $11.0 million for unnecessary
minimized the cost of direct materials to the           subcontractor pass-through costs, an
depot. This report addresses spare parts pricing        unacceptable quantity curve, and instances
problems. A subsequent report will address              where Sikorsky negotiated lower supplier prices
other contract concerns.                                after negotiating with the Army. AMCOM
                                                        officials should procure the remaining contract
What We Found                                           requirement for a rotor from the Defense
AMCOM officials did not effectively negotiate           Logistics Agency (DLA), to save more than
prices for 28 of 46 noncompetitive spare parts          $1.3 million. AMCOM officials need to
reviewed because neither Sikorsky nor                   develop procedures that require the contracting
AMCOM officials performed adequate cost or              officers or other oversight officials to perform
price analyses of proposed subcontractor prices.        price analysis in conjunction with cost analysis.
Sikorsky also paid excessive prices to                  Also, AMCOM officials need to take immediate
subcontractors (pass-through costs) and did not         action to correct excessive prices caused by too
always provide the most current, complete, and          much escalation and use an appropriate
accurate cost data (defective pricing). In              economic index for the contract. The Director,
addition, the CCAD/Sikorsky contract                    Defense Procurement and Acquisition Policy,
established excessive inflation rates that were         needs to issue guidance that emphasizes
not tied to an economic index.                          performing cost analysis of a sample of spare
                                                        parts before exercising an option under a firm-
We calculated that Sikorsky charged the Army            fixed-price contract.
$11.8 million or 51.4 percent more
($34.7 million versus $22.9 million) than fair          Overall, management comments were
and reasonable prices for 28 parts. If prices are       responsive, and management is taking action to
not corrected, AMCOM officials will pay                 address pricing problems. AMCOM is working
excessive profits of approximately $16.6 million        to obtain items from DLA at lower prices or
over the remaining 2 years of the contract.             reduce the current contract price and will
During the audit, Sikorsky agreed to provide            conduct cost analysis of a sample of high-risk,
refunds of about $1.0 million. In addition,             high-dollar items before exercising future
AMCOM will pay excessive escalation costs of            options. However, some management
$21.0 million because contract escalation was           comments were not fully responsive to the
not tied to an economic index.                          recommendations. Therefore, we request
                                                        additional comments by October 11, 2011.
                                                        Please see the recommendations table on
                                                        page iii.

                                                    i
Report No. D-2011-104 (Project No. D2010-D000CH-0077.001)                   September 8, 2011

Report Highlights
Army contract prices were higher than DoD OIG calculated fair and reasonable prices, and prices for the
majority of parts were outside what we considered an acceptable range of plus or minus 10 percent. See
the finding for a more detailed discussion of pricing problems identified. The figure below appears on
page 37 of the report.

             Army Contract Prices Were Too High for the Majority of Parts Reviewed




Some specific examples of pricing problems found were for the rotor and flush door ring (reproduced
here from pages 15 and 28, respectively). In each case, the contract price was significantly higher than
DLA’s standard unit price.

                      Rotor                                              Flush Door Ring




     DLA 2011 Standard Unit Price: $1,536.65              DLA 2010 Standard Unit Price: $8.37
     Sikorsky 2011 Unit Price: $7,814.88                  Sikorsky 2010 Unit Price: $284.46
     Excessive Prices: 2008–2010: $686,293                Excessive Prices: 2008–2010: $195,276
            (Potential) 2011–2012: $1,344,973                    (Potential) 2011–2012: $218,523


                                                    ii
Report No. D-2011-104 (Project No. D2010-D000CH-0077.001)                September 8, 2011

Recommendations Table

        Management                  Recommendations               No Additional Comments
                                   Requiring Comment                    Required
Director, Defense Procurement
                                                                  3
and Acquisition Policy
Commander, Army Aviation and
                                2.b(1), 2.b(3), 2.b(4), 2.b(7),   2.a, 2.b(2), 2.b(5), 2.b(6),
Missile Life Cycle Management
                                2.b(8), 2.b(9)                    2.b(10)
Command
Director, Defense Contract
                                                                  1
Management Agency

Please provide comments by October 11, 2011.




                                           iii
Table of Contents
Introduction                                                                     1

      Objectives                                                                 1
      Background                                                                 1
             Corpus Christi Army Depot                                           1
             Army Aviation and Missile Life Cycle Management Command             1
             Defense Logistics Agency                                            2
             Sikorsky                                                            2
             CCAD/Sikorsky Contracts                                             2
             Nonstatistical Audit Sample of Material                             3
      Review of Internal Controls                                                3

Finding. Spare Parts Pricing Problems                                            4

      Guidance                                                                   4
              Subcontract Pricing Considerations                                 4
              Defective Pricing                                                  5
              Audits Have Found That Sikorsky Does Not Perform Adequate
                 Subcontractor Cost or Price Analyses                            6
      Pricing Problems for Sample Parts                                          7
              Sikorsky Owes Refunds for Defective Certified Cost or Pricing
                Data and Unacceptable Quantity Curve                             8
              Excessive Subcontractor Prices and Pass-Through Costs             17
              Sikorsky Obtained Lower Prices After AMCOM Negotiations and
                Proposed Prices Based on Smaller Quantities Than It Purchased   26
              Excessive Contract Escalation Not Based on Economic Index         33
      Minor Differences Between Costs and Contract Prices                       35
      Better Pricing Controls Are Needed for the Follow-on Contract             36
      Management Comments on the Finding and Our Response                       38
      Recommendations, Management Comments, and Our Response                    38

Appendices

      A. Scope and Methodology                                                  48
            Interviews and Documentation                                        48
            Nonstatistical Sample Selection                                     48
            Price Analysis                                                      48
            Cost Analysis                                                       49
            Use of Computer-Processed Data                                      49
            Prior Coverage                                                      49

      B. Comparison of 2010 Contract and OIG-Calculated Unit Prices             51
Table of Contents (cont’d)
Management Comments

     Defense Procurement and Acquisition Policy   53
     Department of the Army                       54
     Defense Contract Management Agency           72
Introduction
Objectives
The overall objective of the audit was to evaluate material purchases made at Corpus
Christi Army Depot (CCAD) through the partnership agreement with Sikorsky Aircraft
Corporation (Sikorsky). Specifically, we determined whether the partnership agreement 1
with Sikorsky effectively minimized the cost of direct materials to the depot. See
Appendix A for a discussion of the scope and methodology and prior coverage. This
report is one of two reports examining the Army contract with Sikorsky to support
CCAD; the other report will address other CCAD/Sikorsky contract concerns.

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for
Operations in Iraq and Afghanistan,” October 14, 2008. Section 852 requires:

                  … thorough audits to identify potential waste, fraud, and abuse in the
                  performance of the following: (1) Department of Defense contracts,
                  subcontracts, and task and delivery orders for—(A) depot overhaul and
                  maintenance of equipment for the military in Iraq and Afghanistan; and
                  (B) spare parts for military equipment used in Iraq and Afghanistan…

Background
Corpus Christi Army Depot
CCAD, located in Corpus Christi, Texas, is a maintenance depot in the Army Working
Capital Fund Industrial Operations activity group whose mission is to overhaul, repair,
modify, retrofit, test, and modernize helicopters, engines, and components for all services
and foreign military customers. CCAD also is actively engaged in resetting equipment
returning from operations in Iraq and Afghanistan. CCAD is in the chain of command of
the Army Aviation and Missile Life Cycle Management Command (AMCOM).

Army Aviation and Missile Life Cycle Management Command
AMCOM is headquartered at Redstone Arsenal, Alabama, and is a major subordinate
command of the Army Materiel Command (AMC). AMCOM was established as a
readiness command to develop, acquire, field, and sustain aviation and missile weapons
systems. AMCOM provides life-cycle management of Army aviation and missile
systems from research and development to procurement and production; from spare parts
availability to flight safety; and from maintenance and overhaul to eventual retirement.
In addition, AMCOM strives to ensure that the Army's aviation and missile systems are
technologically superior, affordable, and always ready for use.


1
 The partnership agreement is a contract for technical, engineering, and logistics services support and for
material parts support.

                                   FOR OFFICIAL USE ONLY
                                             1
Defense Logistics Agency
The Defense Logistics Agency (DLA), headquartered at Fort Belvoir, Virginia, provides
logistics, acquisition, and technical services to the Army, Navy, Air Force, Marine Corps,
other Federal agencies, and joint and allied forces. DLA reportedly supplies 84 percent
of the military’s spare parts. Further, in addition to regional commands, DLA is
organized into primary level field activities. Among them are the DLA Land and
Maritime, DLA Troop Support, and DLA Aviation.

Sikorsky
Sikorsky Aircraft Corporation, according to its Web site, is a “world leader in the design,
manufacture and service of military and commercial helicopters; fixed-wing aircraft;
spare parts and maintenance, repair and overhaul services for helicopters and fixed-wing
aircraft; and civil helicopter operations.” One of the helicopters that Sikorsky
manufactures is the UH-60 Blackhawk helicopter. The Blackhawk, a utility tactical
transport helicopter, entered Army service in 1979. Its mission is to provide air assault,
general support, aeromedical evacuation, command and control, and special operations
support to combat and stability and support operations. Figure 1 shows the Blackhawk
helicopter.

                        Figure 1. UH-60 Blackhawk Helicopter




                                   Source: www.army.mil

CCAD/Sikorsky Contracts
In December 2002, the AMCOM Contracting Center issued a delivery order contract to
Sikorsky, which bundled the technical, engineering, and logistical services and supplies
(TELSS) support provided to CCAD for the repair, overhaul or recapitalization, and
upgrade of the H-60 utility series helicopter. Under TELSS, Sikorsky acts as AMCOM’s
procurement manager and is responsible for obtaining and providing material needed by
CCAD. AMCOM officials view TELSS as a success when repair turn around time of
airframes and depot level repairable components are reduced and the overall production
quality is improved. The AMCOM Contracting Center has awarded four TELSS
contracts to Sikorsky.

                             FOR OFFICIAL USE ONLY
                                       2
Contract DAAH23-03-D-0043
The AMCOM Contracting Center awarded the initial CCAD/Sikorsky contract on
December 2, 2002. The contract was a 5-year fixed-price, indefinite-delivery, indefinite-
quantity requirements type contract for integrated services and supplies to support the
overhaul and repair of H-60 components at CCAD. The total contract value was
$415 million, or an average of about $80 million a year.

Bridge Contracts (W58RGZ-08-C-0037 and W58RGZ-08-C-0172)
The AMCOM Contracting Center awarded the initial bridge contract, W58RGZ-08-C-
0037, on November 29, 2007, for the period December 1, 2007, through May 30, 2008.
The total contract value was $76 million. The AMCOM Contracting Center awarded the
second bridge contract, W58RGZ-08-C-0172, on June 2, 2008, for the period
June 2, 2008, through November 30, 2008. The total contract value was about
$101 million. The value of the two contracts together was about $177 million.

Contract W58RGZ-09-D-0029
The AMCOM Contracting Center awarded the current contract on November 24, 2008.
This contract is a firm-fixed-price, indefinite-delivery, indefinite-quantity contract with
options available to extend performance through November 30, 2012. The TELSS
contract has an annual cost of about $224 million or $895 million for the 4-year
performance period and includes over 7,000 items.

Nonstatistical Audit Sample of Material
We selected 332 national stock numbers (NSNs) to review, which equaled about
80 percent of the total dollar value of material Sikorsky was required to furnish for the
Blackhawk weapon system from 2009 through 2012. We evaluated current inventory
levels and contract prices to determine if they were excessive. From this list of items, we
selected 46 items on which to perform cost analysis to determine the reasonableness of
contract prices. This report addresses spare parts pricing problems. A subsequent report
will address other contract concerns. For consistency, we used the sample numbers from
the overall sample of 332 NSNs in both audit reports evaluating the CCAD/Sikorsky
contract.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for AMCOM. Specifically, AMCOM did not have adequate procedures to
ensure that both cost and price analyses were performed to establish the reasonableness
of proposed subcontract prices that were used to negotiate contract prices. AMCOM also
needs to perform cost analysis and adjust pricing of a limited sample of high-risk, high-
dollar items before exercising option years. We will provide a copy of the report to the
senior official responsible for internal controls for AMCOM.


                              FOR OFFICIAL USE ONLY
                                        3
Finding. Spare Parts Pricing Problems
AMCOM officials did not effectively negotiate fair and reasonable prices for
noncompetitive spare parts procured on the CCAD/Sikorsky contract. We reviewed costs
for 46 high-dollar parts valued at about $64.4 million and identified pricing problems
with 28 of the parts valued at about $34.7 million. These pricing problems occurred
because neither Sikorsky nor AMCOM officials performed adequate cost or price
analyses 2 of proposed subcontractor prices that were used to support negotiated prices.
The pricing problems also occurred because Sikorsky officials proposed, and AMCOM
officials accepted, questionable cost or pricing data that had no relationship to the actual
price Sikorsky negotiated with its subcontractors. Specific problems include:

    •   Sikorsky furnished certified cost or pricing data that were not current, complete,
        and accurate at the time of the material certification cutoff date (3 parts) and used
        an unacceptable quantity curve                 in determining the cost basis (1 part).

    •   Sikorsky accepted unreasonable price increases from subcontractors resulting in
        excessive pass-through costs (5 parts).

    •   Sikorsky consistently negotiated lower firm prices with suppliers after prices were
        agreed to with AMCOM and also proposed prices based on significantly lower
        quantities than it purchased (19 parts).

As a result, we calculated that Sikorsky charged the Army $11.8 million (51.4 percent)
more than fair and reasonable prices ($34.7 million versus $22.9 million) for 28 parts
through November 2010. If prices are not corrected, AMCOM officials will pay
excessive profits of approximately $16.6 million over the remaining 2 years of the
CCAD/Sikorsky contract. During the audit, Sikorsky proposed refunds of about
$1.0 million to address pricing problems. Contract prices for 18 parts (15 higher and
3 lower), valued at $29.7 million, had minor differences ($1.3 million less) from cost-
based prices of $31.0 million. In addition, through 2010, we calculated that AMCOM
paid $5.4 million more than necessary due to excessive contract escalation rates that were
not tied to an economic index and that AMCOM will pay excessive prices of about
$15.6 million ($6.9 million in 2011 and $8.7 million in 2012) over the remaining 2 years
of the contract if not corrected.

Guidance
Subcontract Pricing Considerations
Federal Acquisition Regulation (FAR) 15.404-3, “Subcontract Pricing Considerations,”
requires contracting officers to determine price reasonableness for the prime contract,


2
 The Director, Aviation Logistics, AMCOM Contracting Center, stated that a cost/price group is being
developed to assist AMCOM in contract negotiations.


                                  FOR OFFICIAL USE ONLY
                                            4
including subcontracting costs. Further, the prime contractor must evaluate subcontract
prices to establish price reasonableness as part of the prime contract proposal.
Specifically, the FAR states:

              (a) The contracting officer is responsible for the determination of price
                  reasonableness for the prime contract, including subcontracting
                  costs. The contracting officer should consider whether a contractor
                  or subcontractor has an approved purchasing system, has
                  performed cost or price analysis of proposed subcontractor
                  prices, or has negotiated the subcontract prices before
                  negotiation of the prime contract, in determining the
                  reasonableness of the prime contract price. This does not relieve
                  the contracting officer from the responsibility to analyze the
                  contractor’s submission, including the subcontractor’s cost or
                  pricing data.
              (b) The prime contractor or subcontractor shall –
                      (1) Conduct appropriate cost or price analyses to establish
                          the reasonableness of proposed subcontract prices;
                      (2) Include the results of these analyses in the price
                          proposal; and
                      (3) When required by paragraph (c) of this subsection, submit
                          subcontractor cost or pricing data to the Government
                          as part of its own cost or pricing data.
              (c) Any contractor or subcontractor that is required to submit cost or
                  pricing data also shall obtain and analyze cost or pricing data
                  before awarding any subcontract, purchase order, or modification
                  expected to exceed the cost or pricing data threshold, unless an
                  exception in 15.403-1(b) applies to that action. [emphasis added]

Defective Pricing
FAR 15.407-1, “Defective Cost or Pricing Data,” states that the Government is entitled to
a price adjustment, to include profit on items that were based on defective data and any
overpayments plus interest. The Government is also entitled to the amount equal to the
overpayment as penalties for defective cost or pricing data.

The Defense Procurement and Acquisition Policy, “Contract Pricing Reference Guides,”
define defective pricing in the following manner:

              Defective pricing is any contracting action subject to the Truth in
              Negotiations Act (TINA) where the negotiated (other than sealed
              bidding procedure) contract price including profit or fee was increased
              by a significant amount because:

                   •    The contractor or a subcontractor at any tier furnished to the
                        Government cost or pricing data that were not complete,
                        accurate, and current as certified in the contractor’s
                        Certificate of Current Cost or Pricing Data;

                   •    A subcontractor or a prospective subcontractor at any tier
                        furnished to the contractor cost or pricing data that were not
                        complete, accurate, and current as certified in the contractor’s
                        Certificate of Current Cost or Pricing data; or


                               FOR OFFICIAL USE ONLY
                                         5
                    •   Any of the above parties furnished data of any description
                        that were not accurate.

Audits Have Found That Sikorsky Does Not Perform Adequate
Subcontractor Cost or Price Analyses
Since 2006, the Defense Contract Audit Agency (DCAA) has consistently documented in
its reports that Sikorsky does not perform adequate cost or price analyses. Sikorsky also
                                                 does not obtain certified cost or pricing
    Since 2006, DCAA has consistently            data when required by FAR 15.404-3 for
                                                 proposed subcontractor prices. In
       documented in its reports that            DCAA Report 2641-2006C12030001,
         Sikorsky does not perform               “Audit of Purchasing System Internal
      adequate cost or price analyses.           Controls and Related Policies and
                                                 Procedures,” February 15, 2007 (review
conducted in 2006), DCAA concluded that Sikorsky’s purchasing system was inadequate
in part. The report stated that Sikorsky’s purchase order files “…lacked significant
supporting documentation.” Some of the missing data from the purchase order files
included cost or price analysis data.

Further, DCAA audit report on the Defense Advanced Research Projects Agency
Sandblaster Program (Report No. 2641–2007C24020001), April 23, 2007, identified
multiple estimating system deficiencies. These deficiencies included:

   •   failure to properly identify subcontracts for which cost analysis is required and
       provide a schedule for performing cost analysis;

   •   failure to timely perform cost analysis of proposed subcontracts; and

   •   failure to use subcontract cost analysis to determine price reasonableness

DCAA cited Sikorsky with the failure to perform cost analysis on two subcontractors that
exceeded the $650,000 (currently $700,000) cost or pricing threshold. According to the
report, Sikorsky planned “…to perform cost analyses after the negotiation of the
prime contract and prior to awarding the subcontracts.” [emphasis added]

In an April 15, 2008, report DCAA again cited Sikorsky’s purchasing system as
inadequate in part and that purchase order files did not include cost or price analysis
documentation (Report No. 2641-2008A27000017).

The October 22, 2007, contractor purchasing system review conducted by the Defense
Contract Management Agency (DCMA) did not specifically address whether cost or
price analyses of subcontract prices were completed in a timely manner. The January 5,
2011, contractor purchasing system review conducted by DCMA found that price
analysis was not effective or was not completed for 30 percent of the dollars reviewed.
In addition, the report did not specifically address whether adequate cost or price analysis
was completed before negotiations with DoD.

                              FOR OFFICIAL USE ONLY
                                        6
During this audit, we found that Sikorsky negotiated prices for the CCAD/Sikorsky
contract before finalizing prices with its suppliers. Performing cost or price analyses of
subcontractor prices after negotiation of contract prices with AMCOM provides no
benefit to the Government and allows Sikorsky to maximize its profits by lowering its
costs after negotiations with the Government. The DCMA Contractor Purchasing Review
Division Director should identify the purchasing system at Sikorsky Stratford,
Connecticut, as high-risk and schedule a purchasing system review to determine whether
Sikorsky conducts subcontractor cost or price analyses before prime contract
negotiations and whether quantity discounts are being adequately passed on to the
Government. [Recommendation 1]

Pricing Problems for Sample Parts
To calculate the DoD Office of Inspector General (OIG) price, we used Sikorsky’s costs
and applied their wrap rate. The wrap rate includes costs of doing business (burdens)
such as overhead, general and administrative costs, and profit. Table 1 summarizes the
pricing problems by category, based on actual sales through 2010. Each category of
pricing problems is discussed in detail following the summary table.

         Table 1. Pricing Problems Exist for 28 of 46 Parts Reviewed (2008–2010)
                                                                 OIG                 Excessive Profit
                                  No. of      Contract         Calculated
          Category                Items        Price             Price             Amount           Percent
Defective Data and
Unacceptable Quantity Curve1         4         $2,021,216         $523,867         $1,497,349         285.8
Excessive Subcontractor
Prices and Pass-Through
Costs                                5         20,946,991       13,951,919           6,995,072          50.1
Sikorsky Negotiated Lower
Prices With Suppliers               19         11,724,322        8,437,580           3,286,742          39.0
 Subtotal – Significant
   Pricing Issues                   28        $34,692,529      $22,913,366        $11,779,163           51.4
Contract Prices Were Slightly
Higher Than Costs                   15         17,840,783       16,784,651           1,056,132           6.3
Costs Were Higher Than
Contract Prices2                     3         11,841,330       14,184,510         (2,343,179)3       (16.5)
    Subtotal – Minor Pricing
      Issues                        18         29,682,113       30,969,1603         (1,287,047)         (4.2)
   Total                              46       $64,374,642        $53,882,526        $10,492,116       19.5
1
  We used the DLA standard unit price in our calculations of excessive profit for one item because an
unacceptable quantity curve                was used to establish the basis of the contract price.
2
  The loss shown primarily relates to incorrect pricing of one item based on an expired long-term agreement.
3
  Slight rounding inconsistencies exist because auditor calculations included decimal places.




                                   FOR OFFICIAL USE ONLY
                                             7
Table 2 shows the excessive prices for 2011 and 2012 and includes a 4 percent annual
escalation factor.

        Table 2. Excessive Prices If Problems Are Not Corrected (2011–2012)
                                   No.                           OIG                 Excessive Profit
            Category                of        Contract         Calculated
                                  Items        Price             Price             Amount        Percent
Defective Data and
Unacceptable Quantity Curve          4        $2,597,957          $562,605        $2,035,352       361.8
Excessive Subcontractor
Prices and Pass-Through
Costs                                5        26,040,569        15,680,534        10,360,034*       66.1
Sikorsky Negotiated Lower
Prices with Suppliers               19         9,724,009          5,523,645         4,200,364       76.0
  Subtotal - Significant
   Pricing Issues                   28      $38,362,536*      $21,766,785*      $16,595,751*        76.2
Contract Prices Were Slightly
Higher Than Costs                   15        15,671,244        13,265,620         2,405,623*       18.1
Costs Were Higher Than
Contract Prices                      3         8,218,866          8,803,019         (584,153)           (6.6)
    Subtotal – Minor Pricing
     Issues                         18      $23,890,110       $22,068,640*        $1,821,471*            8.3
    Total                           46      $62,252,646       $43,835,424*      $18,417,221*        42.0
*
 Slight rounding inconsistencies exist because auditor calculations included decimal places.


See Appendix B for a comparison of the 2010 CCAD/Sikorsky contract and OIG-
calculated unit prices.

Sikorsky Owes Refunds for Defective Certified Cost or Pricing
Data and Unacceptable Quantity Curve
Sikorsky had information that was reasonably available before the material certification
cutoff dates that was not used to support CCAD/Sikorsky contract prices for the aircraft
safety belt (sample 79), the junction box cover (sample 248), and the indicating light
panel (sample 263), valued at $1.1 million. The correct price was $287,723, a difference
of $811,056 or 281.9 percent. Sikorsky has agreed to provide refunds for each of the
three parts. By correcting the contract prices, AMCOM officials will avoid costs of
$690,379 over the remainder of the CCAD/Sikorsky contract.

Sikorsky also used an unacceptable quantity curve              to establish the price for
the rotor (sample 36), valued at $922,437. The correct price was $236,144, a difference
of $686,293 or 290.6 percent. AMCOM officials need to pursue a refund for the
excessive prices paid.




                                  FOR OFFICIAL USE ONLY
                                            8
Table 3 summarizes the refunds due for defective data and the questionable quantity
curve used.

 Table 3. Parts for Which Sikorsky Needs to Provide a Refund and Correct Prices
                                                       OIG              Excessive Profit
  Sample                              Contract       Calculated
  Number             NSN               Price           Price          Amount        Percent     Refund
                                         Procured (2008–2010)
                                             Defective Data
     79         1680013803819         $575,864                                                  Pending
 248            5975014243604          172,074                                                  Pending
 263            6220013068980          350,842                                                  Pending
 Subtotal                           $1,098,779*     $287,723     $811,056*             281.9
                                     Unacceptable Quantity Curve
     36         1615012212603         $922,437         $236,144       $686,293         290.6
     Total                          $2,021,216         $523,867     $1,497,349         285.8
                               Planned Contract Quantities (2011–2012)
                                           Defective Data
     79         1680013803819         $550,461
 248            5975014243604          269,126
 263            6220013068980          112,238
 Subtotal                             $931,825       $241,445     $690,379*            285.9
                                      Unacceptable Quantity Curve
     36         1615012212603       $1,666,133         $321,160     $1,344,973         418.8
     Total                           $2,597,957*        $562,605      $2,035,352        361.8
 *
  Slight rounding inconsistencies exist because auditor calculations included decimal places.


The AMCOM contracting officer needs to obtain Sikorsky refunds of about $1.5 million
for NSNs 1680-01-380-3819, 5975-01-424-3604, 6220-01-306-8980, and 1615-01-221-
2603, which were priced with defective data or an unacceptable quantity curve, and to
correct prices for contract years 2011 and 2012 to avoid excessive profits totaling about
$2.0 million. [Recommendation 2.b(1)]


Sample 79 – Aircraft Safety Belt (NSN 1680-01-380-3819)
(Quantity and Quote Issue – Better Data Available Before Material
Certification Cutoff Date)
Sikorsky had information that was reasonably available before the material certification
cutoff date for the aircraft safety belt. On January 15, 2008, Sikorsky received a vendor
quote from                                           at a unit price of          . On January
24, 2008, Sikorsky issued a purchase order                           at a unit price of
        . However, Sikorsky officials stated that they canceled this purchase order
because the quantity requirement changed                     Sikorsky issued a new
purchase order on February 1, 2008,                                                   at a unit

                                  FOR OFFICIAL USE ONLY
                                            9
price of             While the requirements were reduced in the initial year of the
contract, the quantity     is not representative of the Army’s annual demand of about 90
per year and the contract price should have been adjusted for realistic demand.

On March 14, 2008,                     quoted a quantity range                at a unit price
of           However, according to Sikorsky officials, the quote was not received until
May 19, 2008, after the cutoff date of May 8, 2008, so it was not considered in
developing the contract price. Clearly, the correct price should have been based on unit
costs of              and this information was reasonably available before the cutoff
date. Sikorsky has agreed to provide a refund for the aircraft safety belt and correct the
contract price.

We calculated that since 2008, AMCOM officials have paid excessive profits of
                                on this item. Specifically, AMCOM officials purchased
159 aircraft safety belts at a 2010 contract unit price of $2,959.57, resulting in a total
price of $470,572. However, using the March 14, 2008, quote of                with
Sikorsky’s                wrap rate (burden), we calculated that the contract unit price
should have been              , which results in a total price of           Table 4 shows
the pricing information, and Figure 2 shows the aircraft safety belt used on the
Blackhawk helicopter.

        Table 4. Sample 79 – Pricing Information for the Aircraft Safety Belt
                                                                                       Percent
                                          Date        Quantity       Unit Price
                                                                                      Difference
AMCOM Procurement (Pacific               4/2004        1,870               $700.00
Scientific)
                Quote                   1/15/2008
Cancelled                 Purchase      1/24/2008
Order
                 Purchase Order -       2/1/2008
            (Used as Basis for
Contract Negotiation)
                Quote                   3/14/2008
Burdened                  Quote         3/14/2008
                        Material Certification Cutoff Date - May 8, 2008
                Purchase Order –        7/7/2010

                                          2008          92/0               2,736.29
CCAD/Sikorsky Contract                    2009         98/37               2,845.74
Negotiated/Procured Quantity              2010         94/159              2,959.57
                                          2011           79                3,077.95
                                          2012           96                3,201.07




                                    FOR OFFICIAL USE ONLY
                                              10
                       Figure 2. Sample 79 – Aircraft Safety Belt




Sample 248 – Junction Box Cover (NSN 5975-01-424-3604)
(Quote Issue – Better Data Available Before Material Certification
Cutoff Date)
Sikorsky had information that was reasonably available before the material certification
cutoff date for the junction box cover. Specifically, Sikorsky failed to use the
September 18, 2006, certified proposal                                               with a
unit price of          in its price proposal. Instead, Sikorsky used a not-to-exceed long-
term agreement               , valid from June 21, 2007, through December 31, 2012, to
                                                    establish its price. The not-to-exceed
          The 2010 contract price of                price was                      ,
       $2,393.41 was                                significantly  higher than the certified
   higher than the fair and reasonable              proposal.   After applying  Sikorsky’s
                                                    burdens and profit, the negotiated 2009
                price of            .               contract unit price was $2,301.35.
                                                    Sikorsky’s previous purchase history
for this item shows that the prices paid to its suppliers were never higher than
each. At a minimum, Sikorsky’s prior purchase history for this item should have been a
red flag that the not-to-exceed unit price of             was not valid to determine a fair
and reasonable price and more scrutiny was warranted. This is an example where price
analysis needed to be conducted in conjunction with cost analysis to determine price
reasonableness. As a result, the 2010 contract unit price of $2,393.41 was
                  higher than the fair and reasonable price of

We calculated that AMCOM officials have paid                 in excessive profits for this
item since 2008. We calculated that for 2010, AMCOM officials paid excessive profits
             for the 19 junction box covers purchased. Specifically, AMCOM officials
paid a total of $45,475 (unit price: $2,393.41); however, the 19 junction box covers
should have cost                                based on the          long-term agreement
price plus the Sikorsky wrap rate of               (burden). Sikorsky agreed to provide a

                              FOR OFFICIAL USE ONLY
                                        11
refund for the junction box cover. Correcting the 2011 and 2012 contract prices will
avoid excessive prices of           based on planned contract quantities. Table 5 shows
the pricing information, and Figure 3 shows the junction box cover used on the
Blackhawk helicopter. The difference between the not-to-exceed quote used as the basis
for the proposal and negotiated subcontractor costs is shown in red in the table below.

          Table 5. Sample 248 – Pricing Information for Junction Box Cover
                                                                                        Percent
                                            Date         Quantity        Unit Price
                                                                                       Difference
AMCOM Procurement (Sikorsky)               6/2008           286             $181.70
     Certified Proposal                   9/18/2006
Sikorsky Purchase Order                   6/6/2007

Sikorsky Not-To-Exceed Long-Term          12/5/2007
Agreement

                         Material Certification Cutoff Date – April 8, 2008
Sikorsky Defintized Long-Term            5/2/2008
Agreement –

Burdened Sikorsky Purchase Contract       5/2/2008

                                            2008           16/26           2,213.56*
CCAD/Sikorsky Contract                      2009           23/30           2,301.35
Negotiated/Procured Quantity                2010           43/19           2,393.41
                                            2011             53            2,489.14
                                            2012             53             2,588.71
*Weighted average of the two bridge contract unit prices based on contract quantity.


                          Figure 3. Sample 248 – Junction Box Cover




                                  FOR OFFICIAL USE ONLY
                                            12
Sample 263 – Indicating Light Panel (NSN 6220-01-306-8980)
(Quote Issue – Better Data Available Before Material Certification
Cutoff Date)
Sikorsky had information that was reasonably available before the material certification
cutoff date for the indicating light panel. The CCAD/Sikorsky contract price was based
on a February 1, 2008, quote from             for a unit price of             provided to
                   3
Derco Aerospace. During the audit, we obtained another quote received by Derco
Aerospace from                                   , for a unit price of           (purchase
order unit price:         ). The quote was received on January 30, 2008, 2 days before
the           quote, which was used as the basis for the proposal. As a result, we
calculated that AMCOM paid excessive profits of                  for the indicating light panel.
In 2010, the total price paid was $241,839 (unit price: $3,778.74) for the 64 indicating
light panels purchased; however, the total price should have been                based on the
unit price of          (         plus Sikorsky wrap rate). After Sikorsky was informed of
the documentation we obtained, Sikorsky agreed to issue a refund for the indicating light
panel and correct the contract unit price. Table 6 shows the pricing information, and
Figure 4 shows the indicating light panel used on the Blackhawk helicopter.

      Table 6. Sample 263 – Pricing Information for the Indicating Light Panel
                                                                                         Percent
                                            Date         Quantity        Unit Price
                                                                                        Difference
DLA Procurement (Sun Dial)                5/6/2008          185             $138.00
DLA Standard Unit Price                   FY 2010          ANY               194.58
(Inventory)                                                (54)
                                          FY 2011          ANY               189.76
                                                           (61)
Sikorsky Quote                           1/30/2008
Sikorsky Quote                            2/1/2008
                        Material Certification Cutoff Date – April 8, 2008
Sikorsky Purchase Order -               10/6/2009

Burdened Sikorsky Purchase Order -       10/6/2009

                                            2008           142/0            3,483.51*
CCAD/Sikorsky Contract                      2009           58/30            3,633.41
Negotiated/Procured Quantity                2010           12/64            3,778.74
                                            2011             14             3,929.89
                                            2012             14              4,087.09
*Weighted average of the two bridge contract unit prices based on contract quantity.




3
 Derco Aerospace is a wholly owned subsidiary of Sikorsky, which performs procurement and
warehousing functions for the CCAD/Sikorsky contract.

                                  FOR OFFICIAL USE ONLY
                                            13
                    Figure 4. Sample 263 – Indicating Light Panel




Sikorsky Voluntary Refund on 25 Derco Aerospace Managed Parts
On October 22, 2010, Sikorsky sent a voluntary refund proposal totaling $219,371 for
25 parts that Derco Aerospace managed. Sikorsky officials stated that




AMCOM officials had ample time to correct the contract unit prices for these 25 parts
before the next option year started on December 1, 2010. However, as of March 9, 2011,
AMCOM officials had not corrected the contract unit prices for 2011 and 2012. If the
contract unit prices for these 25 parts are not corrected, the Army will pay additional
excessive profits of            in 2011 and 2012 based on planned contract quantities. In
addition, Sikorsky provided a refund proposal on August 31, 2010, for the indicating light
panel (sample 263) discussed previously, but again as of March 9, 2011, no action had
been taken. In total, Sikorsky has agreed to refunds of about $1.0 million, and AMCOM
officials have requested that DCAA review the proposals. The AMCOM contracting
officer needs to obtain Sikorsky refunds of $219,371 for the 25 Derco Aerospace parts
and correct the 2011 and 2012 contract unit prices. [Recommendation 2.b(2)]

Sample 36 – Rotor (NSN 1615-01-221-2603)
(Unacceptable Quantity Curve             )
Sikorsky-proposed prices for the rotor were based on a quantity curve
                         Derco Aerospace, who quoted the price for Sikorsky, discussed
the prices for the rotor with its supplier



                                   Therefore, the quote for an uneconomic order quantity
       was the basis for the contract proposal. Quoting a quantity of      is not effective
in obtaining a fair and reasonable price and does not represent the best value for
AMCOM.


                             FOR OFFICIAL USE ONLY
                                       14
Table 7 shows the pricing information, and Figure 5 shows the rotor used on the
Blackhawk helicopter.

                 Table 7. Sample 36 – Pricing Information for the Rotor
                                                                                      Percent
                                           Date         Quantity        Unit Price
                                                                                     Difference
           Derco Price Basis              4/2008
          Derco Price Basis               4/2008
Quantity Curve
DLA Standard Unit Price - Honeywell      FY 2008          ANY            1,986.47
(Inventory)                              FY 2009          ANY            2,007.45
                                         FY 2010          ANY            2,378.77
                                                          (35)
                                         FY 2011          ANY            1,536.65
                                                          (34)
                                           2008          113/24         11,087.10*         366.1
CCAD/Sikorsky Contract                     2009           90/69          7,225.30          203.7
Negotiated/Procured Quantity               2010           77/21          7,514.31          215.9
                                           2011            104           7,814.88          228.5
                                           2012            105            8,127.48         241.7
*Weighted average of two bridge contract unit prices based on purchase quantity.


                                  Figure 5. Sample 36 – Rotor




As shown in Table 7, the use of an unacceptable quantity curve            increased the
subcontractor unit price from                                         The table also
                                                     shows that the DLA standard unit
     The use of an unacceptable quantity             price negotiated with Honeywell
                                                     ranged from $1,986.47 to
        curve               increased the            $2,378.77. However, the
   subcontractor unit price from                     significant price increase went
                                                     undetected because Sikorsky and
                                                     AMCOM officials did not perform

                                 FOR OFFICIAL USE ONLY
                                           15
adequate price analysis on the proposed contract unit prices that ranged from $7,225.30
to $11,087.10. We calculated that AMCOM officials paid excessive prices totaling
$686,293, or 290.6 percent, more than necessary by procuring the rotor through Sikorsky
rather than DLA (see Table 8).

          Table 8. Procuring the Rotor From DLA Would Have Saved Money
                   CCAD/Sikorsky Contract
                           Price                   DLA Standard Unit Price             Excessive Price
Year      Qty         Unit            Total           Unit           Total          Amount        Percent
2008       24      $11,087.10         $266,090      $1,986.47        $47,675        $218,415         458.1
2009       69         7,225.30         498,546       2,007.45        138,514         360,032         259.9
2010       21         7,514.31         157,801       2,378.77         49,954          107,846*       215.9
          114                        $922,437                       $236,144*       $686,293         290.6
*Slight rounding inconsistencies exist because auditor calculations included decimal places.


Clearly, basing prices on a quantity of    when the planned and actual usage by the
Army is significantly higher is wrong. We believe Sikorsky, as the overseer for Derco
Aerospace actions and AMCOM’s procurement manager, bears the responsibility to
correct the pricing and refund the excessive prices paid for the rotor.

DLA Aviation has negotiated a much lower price for the Honeywell Rotor under a long-
term contract that uses a process called “one-pass pricing.” In one-pass pricing, a group
of DoD pricing experts provides real-time advice to the DLA Aviation contracting officer
reviewing the Honeywell cost data used to support the proposed/negotiated price. This
rotor also was included in a repricing event as part of a DoD Lean Six Sigma Project,
“DLA/Honeywell Long-Term Contract Model Using One-Pass Pricing for Sole-Source
Spare Parts,” which included representatives from the DoD OIG team that also performed
this audit; DLA Aviation; the DoD Lean Six Sigma Project Office; and Honeywell. As
part of the repricing event, DLA Aviation was able to negotiate a lower unit price for the
Honeywell rotor from $1,737.70 to $1,098.39 (based on an economic order quantity of 10
and up). The FY 2011 DLA standard unit price for this item is $1,536.65, or a difference
of 408.6 percent from the 2011 CCAD/Sikorsky contract unit price of $7,814.88. We
commend the DLA Aviation contracting officer and cost/price analyst for their ability to
negotiate a lower price for the Honeywell rotor.

Unfortunately, the new unit prices may never be realized because DLA currently has
stock on hand of 34 items and a monthly consumption quantity of less than 1 or about
6 parts per year. Therefore DLA will not procure the item again for almost 6 years, and
AMCOM plans to meet CCAD requirements of 105 per year on the CCAD/Sikorsky
contract.




                                   FOR OFFICIAL USE ONLY
                                             16
As shown in Table 9, over the next 2 years, the Army expects to buy 209 of the
           rotor from Sikorsky and spend about $1.3 million or 418.7 percent more by
procuring the                  rotor available from DLA.

             Table 9. DLA Prices Are Much Lower Than the CCAD/Sikorsky
                  Contract Prices for the        Rotor (Sample 36)
                   CCAD/Sikorsky Contract
                           Price                   DLA Standard Unit Price            Total Difference
Year       Qty      Unit Price     Total Price     Unit Price     Total Price       Amount         Percent
 2011      104       $7,814.88        $812,748      $1,536.65        $159,812         $652,936      408.6
 2012      105        8,127.48         853,385       1,536.65         161,348          692,037      428.9
           209                      $1,666,133                       $321,160       $1,344,973      418.7*
*Slight rounding inconsistencies exist because auditor calculations included decimal places.


AMCOM officials need to procure or have Sikorsky procure NSN 1615-01-221-2603
from DLA Aviation to save about $1.3 million over the next 2 years based on planned
contract quantities and help protect war fighter resources. [Recommendation 2.b(3)]

Excessive Subcontractor Prices and Pass-Through Costs
Sikorsky and AMCOM accepted unreasonable price increases from suppliers resulting in
excessive pass-through costs. Table 10 shows the five parts that had excessive pass-
through charges. In the following section, we discuss price increases for each part.

           Table 10. Excessive Subcontractor Prices and Pass-Through Costs
                                                                OIG                  Excessive Profit
    Sample                                  Contract          Calculated
    Number               NSN                 Price              Price            Amount            Percent
                                          Procured (2008–2010)
    1               1615013900740          $20,102,956        $13,478,916        $6,624,040             49.1
234                 1560011867122                241,293
258                 1560011259938                230,235
293                 1560011259937                214,965
332                 1560011153667                157,542
Subtotal                                   $20,946,991        $13,951,919        $6,995,072             50.1
                             Planned Contract Quantities (2011–2012)
    1               1615013900740     $25,075,375       $15,196,352              $9,879,022*            65.0
234                 1560011867122                259,989
258                 1560011259938                275,629
293                 1560011259937                259,545
332                 1560011153667                170,033
Subtotal                                   $26,040,569*      $15,680,534*       $10,360,034*            66.1
                                                                                               *
 Total                                      $46,987,560         $29,632,453      $17,355,106            58.6
*
 Slight rounding inconsistencies exist because auditor calculations included decimal places.


                                   FOR OFFICIAL USE ONLY
                                             17
The AMCOM contracting officer needs to obtain refunds of about $7.0 million from
Sikorsky for excessive supplier costs and correct prices to avoid excessive profits totaling
about $10.4 million for NSNs 1615-01-390-0740, 1560-01-186-7122, 1560-01-125-9937,
1560-01-125-9938, and 1560-01-115-3667. [Recommendation 2.b(4)]

Sample 1 – Titanium Blade Sheath Assembly (NSN 1615-01-390-0740)
Sikorsky did not negotiate fair and reasonable prices or perform adequate cost or price
analyses for the titanium blade sheath assembly even though the price increased
114.3 percent from $7,936.57 each in 2007 to $17,004.39 each in 2008. The titanium
blade sheath assembly is the top dollar item on the contract with average total
procurements of about $14 million annually. Multi-million-dollar subcontractor price
increases need to be thoroughly evaluated and justified. Table 11 details the unit prices
for the titanium blade sheath assembly from the initial CCAD/Sikorsky contract through
the current contract.

         Table 11. Titanium Blade Sheath Assembly Prices (Price Analysis)
                         Contract                                              Percent
               Year      Quantity        Unit Price           Total            Change
              2004            698        $ 7,917.71         $ 5,526,562
              2005              134         7,798.67         1,045,022              (1.5)
              2006              878         7,843.77         6,886,830              0.6
              2007              608         7,936.57         4,825,435              1.2
                     1                              2
              2008              517       17,004.39          8,791,270            114.3
              2009              797       17,683.90         14,094,068              4.0
              2010              324       18,391.26          5,958,768              4.0
              2011              583       19,126.91         11,150,989              4.0
              2012              700       19,891.98         13,924,386              4.0
              1
                Price was negotiated based on 5-year fixed-price agreement.
              2
                The price is a weighted average of the two bridge contracts.


Sikorsky did not obtain cost or pricing data from all       subcontractors despite each of
their proposals being well over the cost or pricing data threshold of $650,000 (currently
                                                         $700,000).
  Multi-million-dollar subcontractor price
     increases need to be thoroughly
          evaluated and justified.


                             Sikorsky did receive cost or pricing data from       its first
tier subcontractor. However, without a review of supplier costs below           there was
little assurance that the price proposed was fair and reasonable. Further, the Sikorsky
cost or price analysis conducted in September 2006 was inadequate because it only
addressed the long-term agreement with           as a whole and did not review individual
part prices.

                                FOR OFFICIAL USE ONLY
                                          18
Figure 6 shows the titanium blade sheath assembly used on the Blackhawk Helicopter.

               Figure 6. Sample 1 – Titanium Blade Sheath Assembly




                     Source: DLA Distribution Susquehanna, Pennsylvania

Long-Term Fixed-Price Agreement to Establish Predictable Profits. As the initial
CCAD/Sikorsky contract was ending, Sikorsky began negotiations for a long-term fixed-
price agreement with its suppliers for titanium blade sheath assembly for the follow-on
contract. Figure 7 shows a flow chart of the manufacturing process and each company’s
role in producing the titanium blade sheath assembly.

         Figure 7. Titanium Blade Sheath Assembly Manufacturing Process




Sikorsky,                          signed the agreement in late October 2007, which
established a firm fixed price for the blade sheath.     finalized the agreement by
signing in January 2008. The agreement established fixed prices for delivery of the
titanium blade sheath assemblies from January 1, 2008, through December 31, 2012.
Under the terms of the agreement,                                                   and
        price to Sikorsky was               per unit.



                            FOR OFFICIAL USE ONLY
                                      19
                                                                       even though the
CCAD/Sikorsky contract permitted contract prices to escalate 4 percent annually.



                  over the course of the CCAD/Sikorsky contract due to the escalation
clause in the prime contract.

Suppliers Made Excessive Profits for the Blade Sheath Assembly. By performing
cost analysis we determined that all suppliers made excessive profits. We calculated a
fair and reasonable price of $11,844.39 each versus the CCAD/Sikorsky contract price of
$18,391.26, a difference of 55.3 percent, by applying the contract negotiated profit of
       percent to each supplier’s costs. Overall,    made          percent profit on
supplying the titanium abrasion strips;             made        percent profit on supplying
the titanium erosion shields;       made       percent profit on supplying the titanium
blade sheath assembly; and Sikorsky made a         percent profit supplying the item to
CCAD in 2010 and the profit will increase annually by 4 percent through 2012 due to the
contract escalation clause.




                             FOR OFFICIAL USE ONLY
                                       20
    Table 12 details each contractor’s cost, price, profit, and the OIG-calculated cost-based
    price. Contractor profits are highlighted in yellow.

      Table 12. Excessive Supplier Profits for Blade Sheath Assembly (Cost Analysis)
                                                       Unit Costs                       Excessive Profit
                                                                              *
                Description                 Contract          OIG-calculated         Amount         Percent

Cost
Profit
          Price

Cost
Additional Material
Labor
Burdens
    Subtotal
Profit
                     Price

Cost
Additional Material
Total Material
Material Burden
    Material Subtotal
Labor
Labor Burden
    Labor Subtotal
Subcontract Total
     Total
Scrap
Total Factory Cost
General and Administrative
Cost of Money
     Total Cost
Profit
             Price

Cost
Burdens
    Subtotal
Profit
     CCAD/Sikorsky Contract Price             $18,391.26              $11,844.39     $6,546.87         55.3
*
 We applied the burden amounts as proposed and would expect them to be less if costs are reduced.

                                    FOR OFFICIAL USE ONLY
                                              21
     Prices for Titanium Were Not Representative of Market Prices, Causing
Excessive Pass-Through Costs. The CCAD/Sikorsky contract did not have an
economic price adjustment clause that would reduce risks associated with market
fluctuations. According to Sikorsky, the Government insisted on a firm fixed price for
the current contract. As a result, the price of the titanium blade sheath assembly
increased significantly, and Sikorsky ensured that it would not suffer loss related to the
volatility of the titanium market.

Specifically, in 2005, the titanium ingot market increased from about $10 to $22.13 per
pound. The high prices for titanium ingot continued through 2006 and 2007, reaching a
high of $27.75 per pound in 2006 and $27.21 per pound in 2007. Figure 8 shows the
history of titanium ingot pricing since 2004.

              Figure 8. Titanium Ingot Prices From 2004 Through 2010




After the CCAD/Sikorsky contract price was negotiated in the 2007-2008 timeframe, the
price of titanium ingot started to decrease significantly and in 2010, the price ranged from
$8.25 to $11.00 per pound. Despite the drastic decrease in prices, the savings were not
passed to the Army because the long-term agreement fixed the price at the higher levels
through 2012. The contracting officer needs to consider using an economic price
adjustment clause in the follow-on contract unless acceptable long-term prices for
titanium can be negotiated. [Recommendation 2.b(5)]

AMCOM and DCMA Did Not Perform Adequate Price Analysis. Neither AMCOM
nor DCMA officials performed adequate price analysis from the initial contract price and
as a result did not question Sikorsky on reasons for large increases. In addition,
AMCOM officials did not review any costs or prices in detail and relied solely on DCMA
to determine price reasonableness for the follow-on contract. DCMA and DCAA advice
and support are designed to assist the contracting officer in determining price

                              FOR OFFICIAL USE ONLY
                                        22
reasonableness. However, the support was never intended to serve as the Government’s
sole representation in negotiating and determining price reasonableness. FAR 15.404-3
assigns the responsibility of determining price reasonableness to the contracting officer.
Therefore, the contracting officer must be involved in reviewing cost data and performing
price analysis. Normally, an experienced cost/price group can assist the contracting
officer in meeting this responsibility. However, the Director, Aviation Logistics,
AMCOM Contracting Center, stated that a cost/price group is being developed to assist
AMCOM contracting officers but is not yet functional. For this reason, we will not be
making a recommendation for AMCOM to review the actions of the contracting officer.

For the titanium blade sheath assembly, DCMA officials reviewed Sikorsky’s cost of
             , which was supported on a negotiated contract with         but failed to
perform a price analysis comparing the proposed price with previous contract prices. As
a result, the 114.3 percent price increase for the titanium blade sheath assembly from the
initial CCAD/Sikorsky contract went largely undetected and resulted in AMCOM paying
excessive profits and not questioning the increases or requiring support for increased
subcontractor prices.

If the Army or DCMA had performed price analysis, they would have discovered the
significant price increase and could have further questioned Sikorsky as to the
reasonableness of the price. An effective analysis of proposed prices must include both
analysis of proposed costs and a comparison of valid prior prices. Performing cost
analysis in isolation is high risk as the results may incorrectly show that the proposed
price is adequate. However, cost analysis alone will not uncover a significant price
increase from the previous procurement. AMCOM needs to develop procedures that
require contracting officers or other oversight officials to perform adequate price
analysis in conjunction with cost analysis to determine price reasonableness, obtain
adequate support for large price increases, and ensure that multi-tier subcontractor
prices are adequately evaluated. [Recommendation 2.a – Internal Control]

Impact of Excessive Prices. The long-term fixed price agreement established
predictable profits for Sikorsky and its subcontractors in supplying the titanium blade
sheath assembly to CCAD. Based on actual sales of 1,138 titanium blade sheath
assemblies from December 1, 2007 through November 30, 2010, we calculated that
AMCOM officials have paid excessive profits of approximately $6.6 million for this
item. AMCOM officials will pay another $9.9 million in excessive profit for 2011 and
2012 (based on planned sales of 1,283), if the contract price for the titanium blade sheath
assembly is not corrected.




                             FOR OFFICIAL USE ONLY
                                       23
            Table 13 details the excessive profit paid for the titanium blade sheath assembly.

                     Table 13. Excessive Profit for the Titanium Blade Sheath Assembly
                                                  OIG Cost-           Total          Total OIG            Excessive Profit
                                   Contract       Based Unit        Contract         Cost-Based
   Year             Procured        Price1          Price             Price             Price            Amount          Percent
2008                     248      $17,004.392     $11,844.39        $4,217,089        $2,937,4103       $1,279,6803         43.6
2009                     682        17,683.90          11,844.39    12,060,420         8,077,8773        3,982,543           49.3
2010                     208        18,391.26          11,844.39     3,825,382         2,463,6343        1,361,748           55.3
                                                                                                                     3
Subtotal                1,138                                      $20,102,891       $13,478,921        $6,623,970           49.1

                                                 Planned Contract Quantities
2011                     583        19,126.91      11,844.39        11,150,989         6,905,2823        4,245,7063          61.5
                                                                                                   3
2012                     700        19,891.98      11,844.39        13,924,386         8,291,076         5,633,310           67.9
Subtotal               1,283                                       $25,075,375       $15,196,358        $9,879,0163          65.0
    Total              2,421                                       $45,178,266       $28,675,279       $16,502,9873          57.6
1
    Contract prices were inflated 4 percent annually
2
    We calculated a weighted average of the two bridge contract unit prices.
3
    Slight rounding inconsistencies exist because auditor calculations included decimal places.


            Samples 234, 258, 293, and 332 (From                                 )
            Sikorsky officials did not negotiate fair and reasonable prices or perform adequate cost or
            price analysis to establish the reasonableness of the proposed prices for four items
                                       resulting in excessive pass-through charges. We calculated that
            for the four items in our sample, AMCOM officials paid excessive profit of
                          , on sales of $844,035.

                       prices for the four items increased significantly, ranging from
                          . For example, the unit price for sample 234, aircraft structural panel
            (NSN 1560-01-186-7122) increased
                      . These types of increases over a period of just a few months should have
            caused Sikorsky, the AMCOM buying manager, to question the price reasonableness of
            the proposed prices and scrutinize these large increases.




                                             FOR OFFICIAL USE ONLY
                                                       24
Figure 9 shows the four          parts used on the Blackhawk helicopter.

                          Figure 9. Four           Parts Reviewed




Sample 234 – Aircraft Structural Panel          Sample 258 – Left Aircraft Access Door




Sample 293 – Right Aircraft Access Door          Sample 332 – Ceiling Panel Assembly

Sikorsky’s cost or price analysis, completed in July 2007, was not adequate, merely
recommended negotiation objectives from the             proposal, and did not address
whether the proposed prices were fair and reasonable. From our review of prices for the
four items, it appeared that Sikorsky accepted             prices as proposed and passed on
the significant price increases to AMCOM. As the buying manager for AMCOM,
Sikorsky needs to obtain fair and reasonable prices from its subcontractors. However,
because Sikorsky has a fixed profit under the contract, it has no incentive to obtain the
lowest price possible, because as subcontractor prices increase, its profits increase. This
is a significant weakness in AMCOM’s current strategy of using Sikorsky as its buying
manager.

To illustrate Sikorsky’s inherent incentive to pass on higher costs, consider the cost and
pricing information for sample 258, left aircraft access door. We calculated that from
2008 through 2010, the Sikorsky profit was              based on the 96 doors that were sold
at a total contract price of $230,235, while the fully burdened total cost was
Using              actual costs that we obtained during the audit, we calculated that
Sikorsky’s fully burdened costs should have been only              , resulting in a contract
price of              That would equate to profit of only

                              FOR OFFICIAL USE ONLY
                                        25
                    for the 96 doors. Therefore, by passing on higher costs to AMCOM for the
     left aircraft access doors, Sikorsky made additional profits of         (see Table 14).

                 Table 14. Additional Sikorsky Profit for Passing on Higher Costs
                    for 96 Left Aircraft Access Doors Purchased (Sample 258)
                                        Cost                           Price
          Description           Unit           Total          Unit              Total            Profit
         Negotiated                                          $2,398.28          $230,235
         OIG-calculated
         Difference


     Table 15 lists the excessive profits paid through November 2010 for each item and the
     excessive profit that will be paid based on planned contract quantities for 2011 and 2012.

                              Table 15. Excessive Profits on                     Parts
                                                                 OIG                       Excessive Profit
                                               Contract        Calculated
 Sample                   NSN                   Price            Price                  Amount            Percent
234                   1560011867122             $241,293
258                   1560011259938              230,235
293                   1560011259937              214,965
332                   1560011153667              157,542
Subtotal                                        $844,035             $473,003              $371,032           78.4
                   Excessive Profit Based on Planned Contract Quantities for 2011 and 2012
234                 1560011867122             $259,989
258                   1560011259938              275,629
293                   1560011259937              259,545
332                   1560011153667              170,033
Subtotal                                        $965,196             $484,183              $481,012*          99.3
                                                                                                      *
    Total                                      $1,809,231             $957,186             $852,044           89.0
*
    Slight rounding inconsistencies exist because auditor calculations included decimal places.



     Sikorsky Obtained Lower Prices After AMCOM Negotiations and
     Proposed Prices Based on Smaller Quantities Than It Purchased
     Sikorsky officials consistently negotiated lower firm prices with suppliers after prices
     were agreed to with AMCOM and also proposed prices based on significantly lower
     quantities. For 19 of the parts reviewed, we calculated that AMCOM paid $11.7 million
     for parts that should have cost only $8.4 million, or a difference of 39.0 percent.
     AMCOM officials need to request a refund from Sikorsky for these parts because
     Sikorsky made excessive profit.



                                       FOR OFFICIAL USE ONLY
                                                 26
Table 16 shows the 19 parts for which Sikorsky negotiated a lower price with its
suppliers after negotiations with AMCOM and did not share savings with the Army. The
sample parts highlighted are discussed in detail in the following section.

               Table 16. Sikorsky Negotiated Lower Prices With Its Suppliers
                             After Negotiations With AMCOM
                                                                OIG                Excessive Profit
        Sample                                Contract        Calculated
        Number              NSN                Price            Price            Amount           Percent
                                         Procured (2008–2010)
        8              3040014158388          $3,499,974
       12              3040010957220           1,452,519
       29              3020011391321           1,092,416
       34              1615011342507             994,717
       44              1615013764398             714,281
       65              6115011456875             571,873
       66              5320014560634              20,767
       83              3040013686667             528,289
   104                 6115011177281             188,200
   109                 5320014561475              16,529
   113                 3120010906519             554,257
   134                 1560011735845             211,294
   156                 6115011177238             221,686
   175                 1615011026051             351,818
   228                 3110011055802             239,421
   255                 1680012737591             102,900
   285                 5998011451798             155,961
   288                 3040012893594             599,093
   330                 5340011014086             208,329
   Subtotal                                 $11,724,322*       $8,437,580*      $3,286,742*          39.0
                               Planned Contract Quantities (2011–2012)
   Subtotal             All 19 Parts          $9,724,009       $5,523,645       $4,200,364           76.0
                                                          *                 *
       Total                                $21,448,332       $13,961,226       $7,487,106           53.6
   *
    Slight rounding inconsistencies exist because auditor calculations included decimal places.


The AMCOM contracting officer needs to request a refund of about $3.3 million from
Sikorsky and correct contract prices to avoid excessive profits of about $4.2 million for
2011 and 2012 for which lower prices were negotiated with suppliers shortly after prices
were negotiated with the Army. [Recommendation 2.b(6)]

Generally, the 19 parts fell into three categories: (1) Sikorsky negotiated a lower price
with its supplier shortly after negotiating the contract price with AMCOM, (2) Sikorsky
proposed the price to manufacture the item then procured the item directly from a
supplier at a lower cost, or (3) Sikorsky negotiated a price with AMCOM using low

                                  FOR OFFICIAL USE ONLY
                                            27
quantities then purchased larger quantities at a lower price but did not pass on savings to
the Army.

Sample 330 – Flush Door Ring (NSN 5340-01-101-4086)
(Negotiated Lower Price After Negotiations With AMCOM)
Sikorsky negotiated lower firm prices with its supplier after prices were agreed to with
AMCOM for the flush door ring. The 2009 contract price of $273.52 was based on a
long-term agreement Sikorsky had with its supplier at a unit price of            . The
material cost certification cutoff date was April 8, 2008. After the negotiation of the
                                                           CCAD/Sikorsky contract price,
     The 2010 contract unit price of $284.46               Sikorsky negotiated and entered
         is 4,495.5 percent higher than the                into a purchase order with a
             previous DLA procurement.                     different supplier on June 13,
                                                           2009, to support requirements for
the remainder of the contract at a         unit price (valid through June 2013). As a
result, we calculated that AMCOM officials paid excessive profits of               through
2010. In 2010, the total price paid was $89,320 (unit price: $284.46) for the 314 flush
door rings purchased; however, the total price should have been             based on the unit
price of         (        plus Sikorsky wrap rate). If pricing is not corrected, AMCOM
officials will pay excessive profits of           in 2011 through 2012 based on planned
quantities. The 2009 contract price of $273.52 for a quantity of 161 was
higher than the most recent DLA procurement for this item. The 2010 contract unit price
of $284.46 is 4,495.5 percent higher than the previous DLA procurement made in
February 2009 for a quantity of 906 for $6.19 each (2007 DLA procurement was $5.75
each). The 2010 DLA standard unit price is $8.37. Figure 10 shows a picture and Table
17 shows the pricing information of the flush door ring used on the Blackhawk
helicopter.

                       Figure 10. Sample 330 – Flush Door Ring




                              FOR OFFICIAL USE ONLY
                                        28
         Table 17. Sample 330 – Pricing Information for the Flush Door Ring
                                                                                        Percent
                                            Date         Quantity        Unit Price
                                                                                       Difference
DLA Procurement (Troy Tube &               9/2007           436               $5.75
Manufacturing)
DLA Procurement (Kampi)                    2/2009           906                6.19
DLA Standard Unit Price                   FY 2010          ANY                 8.37
(Inventory)                                                (545)
                                          FY 2011          ANY                 8.82
                                                           (272)
Sikorsky Long-Term Agreement              4/12/2006

Sikorsky Purchase Order -                 3/11/2008

                         Material Certification Cutoff Date – April 8, 2008
Sikorsky Purchase Order -                6/13/2009

Burdened Sikorsky Price                   6/13/2009

                                            2008          294/233            263.08*
CCAD/Sikorsky Contract                      2009          161/211            273.52
Negotiated/Procured Quantity                2010          304/314            284.46
                                            2011            384              295.84
                                            2012             384              307.67
*Weighted average of two bridge contract unit prices based on contract quantity.



Sample 29 – Pinion (NSN 3020-01-139-1321) (Make-to-Buy Issue)
Sikorsky proposed this item as a make item to establish the 2009 CCAD/Sikorsky
contract price of $5,839.88. After the contract proposal was certified, Sikorsky then
negotiated a long-term agreement with                      which reduced its costs to
                                                       which was valid from September 29,
2008, to December 31, 2012. The 2010 contract price of $6,073.48 is
higher than the fair and reasonable price. Thus, Sikorsky’s decision to change from
making this item to procuring it increased its profit dramatically. We calculated that
AMCOM officials have paid Sikorsky excessive profits of                 since 2008. For
2010, we calculated that AMCOM paid excessive profits of                 . The total price
was $431,217 (unit price: $6,073.48) for 71 pinions; however, the total price should have
been             based on the unit price of             (         plus Sikorsky wrap rate).
Based on planned contract quantities in 2011 and 2012, AMCOM officials will pay
excessive profits of           if the price is not corrected.




                                  FOR OFFICIAL USE ONLY
                                            29
Table 18 shows the pricing information, and Figure 11 shows the pinion used on the
Blackhawk helicopter.

                Table 18. Sample 29 – Pricing Information for the Pinion
                                                                                       Percent
                                           Date         Quantity        Unit Price
                                                                                      Difference
AMCOM Procurement (Canadian               4/2001           370           $3,629.22
Commercial Corporation)
Sikorsky (Make Price)
Sikorsky Long-Term Agreement –           9/29/2008

Burdened Sikorsky Long-Term              9/29/2008
Agreement -

                                           2008           144/43          5,714.40*
CCAD/Sikorsky Contract                     2009           144/71          5,839.88
Negotiated/Procured Quantity               2010           122/71          6,073.48
                                           2011             84            6,316.42
                                           2012              82            6,569.07
*Weighted average of two bridge contract unit prices based on contract quantity.


                                 Figure 11. Sample 29 – Pinion




Sample 12 – Center Housing Assembly (NSN 3040-01-095-7220)
(Make-to-Buy Issue)
The proposed price for the center housing assembly was based on costs related to
Sikorsky manufacturing the item. After negotiations with AMCOM, Sikorsky began to
procure the item directly from a supplier for a lower price. Specifically, Sikorsky
proposed this item as a make part to establish the 2009 CCAD/Sikorsky contract price of
$12,066 each. However, Sikorsky began purchasing this item in September 2008 and
locked in a price of           from its supplier through June 2012. The 2010 contract
price of $12,548.19 is              higher than the burdened price of
Additionally, Sikorsky profits will continue to grow each year because it locked in a price

                                 FOR OFFICIAL USE ONLY
                                           30
with its supplier through 2012, and the contract price allows escalation of 4 percent each
option year. Since 2008, AMCOM officials paid Sikorsky excessive profits of
          In 2010, AMCOM officials paid excessive profits of             for six center
housings. The total price paid was $75,289 (unit price: $12,548.19); however, the total
price should have been          , based on the unit price of           (            plus
Sikorsky wrap rate). If the price is not corrected, AMCOM officials will pay excessive
profits of           in 2011 and 2012 based on planned quantities. Table 19 shows the
pricing information, and Figure 12 shows the center housing assembly used on the
Blackhawk helicopter.

    Table 19. Sample 12 – Pricing Information for the Center Housing Assembly
                                                                                        Percent
                                           Date          Quantity       Unit Price
                                                                                       Difference
AMCOM Procurement (Purdy                  10/2004          242            $5,640.00
Corporation)
Sikorsky (Make Price)
Sikorsky Long-term Agreement -           9/17/2008

Burdened Sikorsky Long-term              9/17/2008
Agreement -

                                           2008           147/89          11,772.34*
CCAD/Sikorsky Contract                     2009           95/27           12,065.57
Negotiated/Procured Quantity               2010            77/6           12,548.19
                                           2011              0            13,050.12
                                           2012              70            13,572.13
*Weighted average of two bridge contract unit prices based on contract quantity.


                     Figure 12. Sample 12 – Center Housing Assembly




                                  FOR OFFICIAL USE ONLY
                                            31
Sample 134 – Access Cover (NSN 1560-01-173-5845) (Quantity Issue)
Sikorsky negotiated prices with AMCOM using low quantities, then purchased larger
quantities at a lower price but did not pass on savings to the Army. Sikorsky’s proposed
price for this item was based on a quantity that was not representative of the annual
                                                        contract demands. The negotiated
      The negotiated contract price was                 contract price was based on a price of
       based on a price of               for a                   for a quantity of when
    quantity of when AMCOM planned                      AMCOM      planned to procure more
     to procure more than 350 annually.                 than 350 annually. Sikorsky procured
                                                        larger quantities at a much lower price
                     which inflated its profits for this item. Sikorsky’s purchase history for
this item ranged from
DLA procured 424 access covers from Parker Hannifin in June 2009 for $139.04 each
($128.21 in 2007). The current contract price of $709.48 is 410.3 percent higher than the
previous DLA purchase.

We calculated that AMCOM officials have paid excessive profits of                 since
2008. In 2010, AMCOM officials paid                of excessive profits for 223 access
covers. The total price was $158,214 (unit price: $709.48); however, the total price
should have been           , based on the unit price of         (          plus Sikorsky
wrap rate). If prices are not corrected, AMCOM officials will pay an additional $419,983
in 2011 and 2012 based on planned contract quantities. Table 20 shows the pricing
information, and Figure 13 shows the access cover used on the Blackhawk helicopter.
             Table 20. Sample 134 – Pricing Information for the Access Cover
                                                                                                  Percent
                                                   Date           Quantity         Unit Price
                                                                                                 Difference
DLA Procurement (Parker Hannifin)                 6/2009              424            $139.04
DLA Standard Unit Price                          FY 2010             ANY              179.17
(Inventory)                                                          (753)
                                                 FY 2011             ANY               205.08
                                                                     (727)
Sikorsky Purchase Order -                       3/22/2007
            Used for Negotiation

Sikorsky Purchase Order –                       2/12/2009

Sikorsky Purchase Order –                      11/30/2009

Average Sikorsky Burdened Price
                                                   2008               6/5              656.06*
CCAD/Sikorsky Contract                             2009              4/73              682.19
Negotiated/Procured Quantity                       2010            223/223             709.48
                                                   2011               437              737.85
                                                   2012               437              767.37
*Weighted average of two bridge contract unit prices based on contract quantity.

                                      FOR OFFICIAL USE ONLY
                                                32
                        Figure 13. Sample 134 – Access Cover




Excessive Contract Escalation Not Based on Economic Index
AMCOM officials agreed to an annual escalation factor of 4 percent to the negotiated
contract price. The escalation factor was not based on an economic index and, according
to the price negotiation memorandum, was considered representative of Sikorsky’s
historical experience of supplying parts to CCAD. According to the Bureau of Labor
Statistics (BLS) producer price index for other aircraft parts and equipment, inflation in
2008 was 4.05 percent, 1.82 percent in 2009, and 0.35 percent in 2010. For 2011 and
2012, we applied escalation of 2.25 percent each year for aircraft parts based on the
judgment and analysis of an Air Force Senior Cost/Price Analyst, who used Global
Insight predictive indicators.

We calculated the difference between the contract escalation rate of 4 percent a year and
the actual escalation experienced through 2010 and rational projection of the near term
escalation beyond 2010. Our calculations showed that AMCOM officials paid excessive
escalation of $5.4 million through 2010. AMCOM officials will continue to pay
excessive escalation: approximately $6.9 million in 2011 and approximately $8.7 million
in 2012.




                             FOR OFFICIAL USE ONLY
                                       33
       Therefore, over the entire contract period, we calculated that AMCOM officials will pay
       more than $21.0 million in excessive profit because escalation was not based on an actual
       economic index (see Table 21).

                       Table 21. Profits Paid Due to Excessive Contract Escalation
                     BLS1                            Contract
                              Compound                       Compound
               Escalation       Interest      Escalation       Interest     Difference       Disbursed
    Year       (Percent)       (Percent)      (Percent)       (Percent)     (Percent)        Amount2          Excess Profit
    2008             4.05            4.05           4.00            4.00         (0.05)      $98,669,263         ($49,335)
    2009             1.82            5.94           4.00            8.16           2.22          96,730,380     2,143,826
    2010             0.35            6.31           4.00           12.49           6.17          53,722,395     3,315,686
    Subtotal                                                                                $249,122,038       $5,410,177
    2011             2.25            8.71           4.00           16.99           8.28          83,040,679     6,875,159
    2012             2.25           11.15           4.00           21.67         10.51           83,040,679     8,729,903
                                                                                                          3
    Subtotal                                                                               $166,081,359       $15,605,062
      Total                                                                                $415,203,397       $21,015,2383
1
  Rates for 2008 through 2010 are based on actual rates from the Bureau of Labor Statistics, while 2011 and 2012 rates
are based on projections from an Air Force Senior Cost/Price Analyst.
2
  The disbursed amounts for 2008 through 2010 are actual disbursements. Disbursed amounts for 2011 and 2012 are
an average of the disbursed amounts from 2008 through 2010.
3
  Slight rounding inconsistencies exist because auditor calculations included decimal places.


       The AMCOM contracting officer needs to request a voluntary refund of about
       $5.4 million from Sikorsky for excessive profits paid from 2008 through 2010 that were
       caused by excessive escalation. Further, the contracting officer needs to account for and
       request a refund from Sikorsky for excessive escalation for 2011. The contracting officer
       should not exercise the next option year until contract escalation is based on an
       appropriate economic index and pricing has been corrected to avoid excessive escalation
       of $8.7 million in 2012. [Recommendations 2.b(7) through 2.b(9)]

       FAR 16.203, “Fixed-price contract with economic price adjustment,” provides for an
       upward and downward revision of the contract price. Three general types of economic
       price adjustments defined are (1) adjustments based on established prices, (2) adjustments
       based on actual costs of labor or material, and (3) adjustments based on cost indexes of
       labor or material. FAR 16.203-3, “Limitations,” states that “A fixed price contract with
       economic price adjustment shall not be used unless the contracting officer determines
       that it is necessary to protect the contractor and Government against significant
       fluctuations in labor or material costs . . .” [emphasis added]. Paragraph (d)(1) of
       FAR 16.203-4, “Contract clauses,” outlines when adjustments based on cost indexes of
       labor and material may be appropriate.

                            (i) The contract involves an extended period of performance with
                            significant costs to be incurred beyond 1 year after performance begins;

                            (ii) The contract amount subject to adjustment is substantial; and


                                             FOR OFFICIAL USE ONLY
                                                       34
               (iii) The economic variables for labor and material are too unstable to
               permit a reasonable division of risk between the Government and the
               contractor, without this type of clause.

The Defense Federal Acquisition Regulation Supplement, Procedures, Guidance, and
Information 216.203-4, “Contract clauses,” cautions contracting officers to carefully craft
the economic price adjustment clause and to always request assistance from their local
pricing office (DCMA or DCAA).

The AMCOM contracting officer did not use an economic price adjustment clause based
on an appropriate cost index or request assistance from the local pricing office. Instead,
the contracting officer agreed to apply 4 percent annual escalation to contract prices. As
shown in Table 21, this decision did not protect Government interests and resulted in
excessive prices. We question the decision making and review process of AMCOM
contracting officials. The individual who reviewed and approved the price negotiation
memorandum with a flat 4 percent escalation was the Principal Assistant Responsible for
Contracting. However, because this person no longer works for AMCOM, we will not
recommend a review of her performance.

Minor Differences Between Costs and Contract Prices
Out of the 46 parts reviewed, 18 sample parts, valued at $31.0 million, had minor
differences from the negotiated contract price of $29.7 million. For these 18 parts,
AMCOM officials paid $1.3 million less than the OIG-calculated cost-based price;
however, overall Sikorsky technically did not lose money on these parts. Sikorsky
applies a              wrap rate to its parts to account for overhead costs and profit.
Specifically, Sikorsky’s profit, included in the wrap rate, is      percent. For Sikorsky
to lose money on these parts, the overall percent difference would have to be more than
       percent. For our sample parts, the actual price paid was 4.2 percent lower than the
negotiated contract amount for these parts.




                                FOR OFFICIAL USE ONLY
                                          35
Table 22 shows the sample parts that had prices in line with the negotiated contract
prices.

                 Table 22. Contract Prices Had Minor Differences for 18 Parts
                                                                                           Difference
                                          Contract Price           OIG
    Sample                                  for Parts            Calculated
    Number               NSN                Procured               Price             Amount               Percent
                               Contract Prices Were Slightly Higher Than Costs
    11              6115011241070               $2,319,860
    18              1615012259745                1,645,720
    28              1615010745153                5,068,192
    30              3110010854569                1,246,353
    31              1650010957159                2,464,291
    32              1615013575089                  971,913
    46              1560011153589                1,218,689
    68              1630010892850                  599,035
    71              5977014329247                  598,299
111                 1680011138182                  353,495
117                 2995011594660                  219,390
121                 5340010957378                  357,566
142                 1680013837989                  157,939
198                 5340013458847                  212,367                                            *
227                 3120013770339                  407,673                                            *          *
Subtotal                                      $17,840,783*                                        *
                                    Costs Were Higher Than Contract Prices
      2             1615011101491              $11,455,064                                        *
172                 5945012129604                  354,321                                        )
267                 3110009323679                    31,945
Subtotal                                       $11,841,330                                        *
    Total                                      $29,682,113      $30,969,160*       ($1,287,047)              (4.2)
*
    Slight rounding inconsistencies exist because auditor calculations included decimal places.


Better Pricing Controls Are Needed for the
Follow-on Contract
AMCOM officials have a myriad of issues to overcome on the CCAD/Sikorsky contract
to ensure that prices are fair and reasonable. The escalation applied to contract prices
was excessive. Since 2006, DCAA has found significant deficiencies with Sikorsky
proposals, including the failure to perform cost or price analysis of subcontractor
proposals and to obtain certified cost or pricing data when required. We have identified
the same issues reviewing documentation for 46 parts.



                                      FOR OFFICIAL USE ONLY
                                                36
We are concerned that contract prices for 43 of the 46 parts reviewed favored Sikorsky
and resulted in excessive profits. We would expect a more balanced variation of
increases and decreases from costs than we found in this review. Figure 14 shows that
the vast majority of these prices were significantly higher than OIG-calculated cost-based
prices and were outside a 10 percent variance.

                  Figure 14. Army Contract Prices Were Too High
                       for the Majority of the Parts Reviewed




Another major concern is that there is an inherent conflict with Sikorsky performing the
buying manager role because its profit dollars increase as negotiated costs increase.
Also, AMCOM officials seem ill prepared to provide the amount of oversight required to
overcome these obstacles and to ensure Sikorsky is effective at negotiating fair and
reasonable prices. As a result, AMCOM officials should consider changing the contract
type to a fixed-price incentive contract that can better control costs.

DoD IG Report No. D-2011-061, “Excess Inventory and Contracting Pricing Problems
Jeopardize the Army Contract With Boeing to Support the Corpus Christi Army Depot,”
May 3, 2011, recommended that the Director, Defense Procurement and Acquisition
Policy, establish policy showing a clear preference for the use of fixed-price incentive
contracts for all contracts exceeding $100 million (including option years) unless the
Government objective price was developed by an experienced cost/price analysis group
and also recommended that AMCOM use a fixed-price incentive contract. Therefore, we
are not making these recommendations in this report.




                             FOR OFFICIAL USE ONLY
                                       37
However, while we believe the fixed-price incentive may be the best solution to pricing
problems, another option would be to develop procedures to annually perform cost
analysis on a limited sample of high-risk, high-dollar items to correct pricing before
exercising the option year. AMCOM officials need to perform cost analysis and adjust
pricing of a limited sample of high-risk, high-dollar items before exercising the next
option or pursue a fixed-price incentive contract. [Recommendation 2.b(10) – Internal
Control] The Director, Defense Procurement and Acquisition Policy, needs to issue
guidance to the contracting workforce that emphasizes performing cost analysis of a
limited sample of spare parts before exercising an option under a firm-fixed-price
contract. [Recommendation 3]

Management Comments on the Finding and Our Response

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed to obtain refunds or demand
price reductions when the contractor did not provide full disclosure of data, obvious
errors were made, or when the contractor was substantially negligent in establishing the
reasonable prices with a supplier. He stated, however, that under a fixed-price contract
where a large number of parts are procured, the contractor will negotiate lower prices
after the contract agreement, but there will also be parts where the price increases. He
stated that the key is whether the overall price and/or quantity changes are substantial
enough to warrant a change in either procedures or contract type. The Deputy stated that
because this was a performance-based agreement, AMCOM expected material to increase
about 25 percent because it was procuring the items through a prime contractor at lower
quantities and required rapid turn around. Also, he commented that some of the benefits
received were a reduction in repair turn around time and increases in overall production
and readiness for the Blackhawk platform. He stated contract improvements would be
made, to include a more comprehensive partnership with DLA to require procurement of
their inventory, sampling of high-dollar prices annually before exercise of options, and
reductions of pass-through costs on material procured through DLA and/or material
incentives that allow for sharing of substantial savings due to vendor cost reductions.

Our Response
We agree that AMCOM should obtain refunds when the contractor provided defective
cost data during negotiations and when the contractor failed to perform adequately as
AMCOM’s procurement manager to obtain fair and reasonable prices. We also
recognize the inherent risk in a firm-fixed-price contract. However, our review of costs
for the 46 parts shows that prices favored Sikorsky and resulted in excessive profits for
43 of those parts. The excessive prices described in the report have no relationship to the
“expected material to increase about 25 percent” stated by the Deputy to the
Commanding General. A subsequent report on the CCAD/Sikorsky contract will address
other contract concerns.

Recommendations, Management Comments, and Our Response
1. We recommend that the Director, Defense Contract Management Agency,
instruct the Contractor Purchasing Review Division Director to identify the

                             FOR OFFICIAL USE ONLY
                                       38
purchasing system at Sikorsky, Stratford, Connecticut, as high-risk and schedule a
purchasing system review to determine whether Sikorsky conducts subcontractor
cost or price analyses before prime contract negotiations and whether quantity
discounts are being adequately passed on to the Government.

Defense Contract Management Agency Comments
The Executive Director, Contracts, DCMA, agreed. The Executive Director stated that
DCMA completed a contractor purchasing system review at Sikorsky in January 2011,
and deficiencies were noted. The Executive Director stated that DCMA has identified
Sikorsky’s purchasing systems as high risk, and a contractor purchasing system review is
scheduled for February 2012. The review will verify and validate the effectiveness of
Sikorsky’s corrective actions and address the timing of subcontractor analysis and
whether discounts are passed on to the Government.

Our Response
The Executive Director, Contracts, DCMA, comments are responsive. No further
comments are required.

2. We recommend that the Commander, Army Aviation and Missile Life Cycle
Management Command:

        a. Develop procedures to ensure that contracting officers or other oversight
officials perform adequate price analysis in conjunction with cost analysis to
determine price reasonableness, obtain adequate support for large price increases,
and ensure that multi-tier subcontractor prices are adequately evaluated.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed. He stated that the
contracting officer used DCAA and DCMA in performing cost or price analysis for the
Sikorsky proposal of about 7,000 parts. He also stated the contracting officer relied on
certified cost or pricing data in determining fair and reasonable prices and DCMA
reviewed about 80 percent of the total dollars of the bills of material, using vendor
quotes, cost or price analysis provided by the contractor, and purchase history. The
Deputy stated that AMCOM recognizes the need to focus on the evaluation of proposals
and drive efficiencies in large-dollar acquisitions, so the Army Contracting Command-
Redstone Arsenal has established a new directorate of cost/price analysts. He stated that
training is being conducted as the new directorate stands up and with increased growth
the directorate will provide improved focus in evaluation and pricing of negotiated
procurements.

Our Response
The Deputy to the Commanding General, AMCOM, comments are responsive. No
further comments are required.

       b. Instruct the contracting officer to:

                             FOR OFFICIAL USE ONLY
                                       39
              (1) Obtain Sikorsky refunds of about $1.5 million for NSNs 1680-01-
380-3819, 5975-01-424-3604, 6220-01-306-8980, and 1615-01-221-2603, which were
priced with defective data or an unacceptable quantity curve, and correct prices to
avoid excessive profits totaling about $2.0 million for contract years 2011 and 2012.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, partially agreed. The Deputy stated
that the recommendations for refunds were based on 28 of the 46 items reviewed.
Further, he stated that the 28 items reflected 13 percent of the total material sold under
the audited contracts from 2008 through June 2011. He also stated that Sikorsky
reviewed their pricing data and determined there were pricing errors for NSNs 1680-01-
380-3819, 5975-01-424-3604, and 6220-01-306-8980. He stated that Sikorsky submitted
voluntary refund proposals for these items, which the contracting officer is currently
reviewing. For NSN 1615-01-221-2603, the Deputy stated that Sikorsky data indicates
that Sikorsky reviewed the pricing from Derco, to reduce the                price. For
instance, Derco asked               why it sold the items directly to the Government for
one price and to Derco for another price on contracts for the Government. He stated that
            explained that its price was based on commercial pricing and that it priced the
“worst case scenario” because of a history of canceled orders. He stated that Sikorsky’s
documentation also showed that all parties were aware of the DLA-negotiated price and
tried to negotiate a lower price. The Deputy stated that the rotors would be purchased
from DLA inventory if it is available.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
We agree that Sikorsky should fix prices and issue refunds for excessive prices charged,
plus applicable penalties and interest, when defective cost or pricing data are used to
negotiate prices.

However, we disagree with AMCOM’s position of not seeking a refund for NSN 1615-
01-221-2603, rotor. As detailed in the report, the rotor pricing was based on an
unacceptable quantity curve             when AMCOM’s actual usage was about 40
annually. We question the decision to pay unreasonable commercial prices, when “all
parties” were aware that DLA had a much lower price for the rotor.

In addition, although we recognize that AMCOM is trying to meet the intent of the
recommendation by obtaining future requirements from DLA at a much lower price,
current DLA inventory of 34 rotors will not satisfy 1 year’s requirement. We expect that
AMCOM will communicate its future needs to ensure that DLA will have the inventory
required to satisfy future requirements. We request additional comments in response to
the report, which detail AMCOM’s plan to satisfy future requirements using DLA
inventory and pricing, as well as its efforts to obtain a refund for the rotor.




                             FOR OFFICIAL USE ONLY
                                       40
              (2) Obtain Sikorsky refunds of $219,371 for 25 Derco Aerospace
parts and correct the 2011 and 2012 contract unit prices.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed. He stated that the refund
proposal is being reviewed by the contracting officer and appropriate action will be taken
as required.

Our Response
The Deputy to the Commanding General, AMCOM, comments are responsive. No
further comments are required.

             (3) Procure or have Sikorsky procure NSN 1615-01-221-2603 from
DLA Aviation to save about $1.3 million over the next 2 years based on planned
contract quantities.

Department of the Army
The Deputy to the Commanding General, AMCOM, agreed. He stated that for the
remainder of the contract this NSN will be purchased from DLA if inventory is available.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
As discussed in our response to 2.b(1), we recognize that AMCOM is trying to meet the
intent of the recommendation by obtaining future requirements from DLA at a much
lower price. However, current DLA inventory of 34 rotors will not satisfy 1 year’s
requirement. We expect that AMCOM will communicate its future needs to ensure that
DLA will have the inventory required to satisfy future requirements. We request
additional comments in response to the report, which detail AMCOM’s plan to satisfy
future requirements using DLA inventory and its much lower price for the rotor.

               (4) Obtain refunds of about $7.0 million from Sikorsky for
unnecessary pass-through costs and correct prices to avoid excessive profits of about
$10.4 million for NSNs 1615-01-390-0740, 1560-01-186-7122, 1560-01-125-9937,
1560-01-125-9938, and 1560-01-115-3667.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, partially agreed. He disagreed with
obtaining refunds, but did agree on reducing prices before the exercise of the next option
year. For NSN 1615-01-390-0740, the Deputy stated that Sikorsky performed a cost
analysis on a
                                He stated this is a common Sikorsky practice for suppliers
with large quantities of items and savings achieved through these types of negotiations
are passed to the Government through both production and spares contracts. The Deputy
stated that the contractor assumes the risk for price increases in a firm-fixed-price
environment. He noted that the raw material price from          was in line with the market

                             FOR OFFICIAL USE ONLY
                                       41
and that if the price had increased,      would not have been able to increase its price to
Sikorsky. He stated that the OIG’s assertion, that Sikorsky had no risk of loss due to
significant changes to the price of titanium in the                           , does not
appear to be supported based on Sikorsky documentation. He stated that the agreement
obligates Sikorsky to purchase a minimum of                of the blades in the forecast
quantity in the year of delivery. Should Sikorsky fail to purchase               of the
forecasted quantity in any year, it is required to immediately purchase the excess quantity
of titanium, which places substantial cost risk on Sikorsky.

For          items (NSNs 1560-01-186-7122, 1560-01-125-9937, 1560-01-125-9938, and
1560-01-115-3667), the Deputy stated that a cost or price analysis was completed on
1,200 parts,


                                                                                      The
Deputy stated that based on a review of the individual parts, the contracting officer would
request that Sikorsky adjust pricing to be more in line with the vendor pricing.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
We disagree with the AMCOM position of not seeking refunds of $7 million for the
excessive prices paid through 2010. In addition, the comments provided do not address
pricing of the items for 2011.

We do not see any savings related to the prices of NSN 1615-01-390-0740, titanium
blade sheath assembly,                                                              The
                           fixed Sikorsky’s costs at               resulting in a
CCAD/Sikorsky contract price of $17,004.39 to $19,891.98 over the course of the
contract. Previously the Army acquired the titanium blade sheath assembly for $7,936.57
(a difference of 114.3 to 150.6 percent) each in 2007. As detailed in the report, pursuant
to FAR 15.404-3, “Subcontract Pricing Considerations,” an adequate cost analysis of
each supplier’s certified proposal should have been conducted by either Sikorsky or the
contracting officer. Our audit detailed that only       and Sikorsky certified to its cost
data, while                       did not provide cost data, only prices. After we
performed cost analysis of each supplier costs, we determined that a reasonable price for
the titanium blade sheath assembly should be $11,844.39. As a result of not having all
the subcontract proposals properly analyzed, the Army paid excessive prices of
$6.6 million through 2010 for NSN 1615-01-390-0740.

In addition, we disagree with the Deputy that there is a substantial cost risk to Sikorsky
caused by the
                                                                                     We
acknowledge that Sikorsky may need to provide additional investment in material if
demands are significantly lower; however, Sikorsky has no risk of loss because they have
both military and commercial customers for helicopters and can roll over quantities not
purchased to future years.

                             FOR OFFICIAL USE ONLY
                                       42
We agree that the prices of spare parts from     were accepted as proposed by
Sikorsky, resulting in AMCOM paying excessive prices.

Given that Sikorsky did not perform adequately as AMCOM’s procurement manager by
failing to obtain and review cost data and negotiating fair and reasonable prices from its
suppliers, Sikorsky bears responsibility to refund the excessive prices paid. We request
that the Deputy to the Commanding General, AMCOM, reconsider his position and
provide additional comments in response to the report, which address the efforts to obtain
refunds and lower prices for these items when adequate subcontract cost analysis was not
performed by Sikorsky.

              (5) Consider using an economic price adjustment clause in the follow-
on contract unless acceptable long-term prices for titanium can be negotiated.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed. He stated that if titanium
prices are in a state of significant fluctuation, an economic price adjustment clause will
be incorporated into the follow-on contract.

Our Response
The Deputy to the Commanding General, AMCOM, comments are responsive. No
further comments are required.

               (6) Request a refund of about $3.3 million from Sikorsky and
correct contract prices for 2011 and 2012 to avoid excessive profits totaling about
$4.2 million for which lower prices were negotiated with suppliers shortly after
prices were negotiated with the Army.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, partially agreed. He stated that the
Government assumes that contractors’ proposals are based on economic order quantities.
The Deputy stated that once negotiations have concluded and the contractor’s pricing is
based on accurate and complete data at certification, the contractor has met the
requirements for cost and pricing certification even if its negotiates lower prices after
certification. He stated that this is a common industry practice and part of doing
business, as adjustments are made from quotes to purchase orders. The Deputy stated
that Sikorsky has a disciplined process for a board at the vice president level to review
make/buy items. He stated that the board considers capacity and demand, and ensures
that a qualified vendor can support production with a quality part. He also commented on
the pricing of each spare part we idenitified in this category and generally agreed to seek
lower pricing from Sikorsky or DLA.




                              FOR OFFICIAL USE ONLY
                                        43
Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
We found a recurring problem of Sikorsky negotiating lower prices with its supplier after
completing negotiations with AMCOM. AMCOM needs to be aware of this inherent risk
using long-term, firm-fixed-price contracts and take appropriate steps to share in reduced
prices from Sikorsky’s suppliers. AMCOM actions to lower prices by obtaining the
items from DLA or reducing current contract prices are a step in the right direction. For
more detail on each of the parts discussed, please refer to the report’s finding. In regard
to the difficulty in obtaining reasonable prices from Honeywell, a more effective
approach may be for AMCOM to work with DLA to negotiate or obtain cost-based prices
using the DLA/Honeywell long-term contract. Table 23 shows that both the Army and
DLA negotiated much lower prices from Honeywell than Sikorsky did.

                 Table 23. The Army and DLA Negotiated Much Lower
                       Prices From Honeywell Than Sikorsky Did
                                                       Previous        CCAD/Sikorsky
 Sample                                                Contract           Contract            Percent
 Number             NSN             Order Date        Unit Price1      2010 Unit Price       Difference
     65        6115011456875          10/2003            $4,237.82            $10,371.25           144.7
 104           6115011177281           3/2006             5,799.00               9,651.27           66.4
 156           6115011177238          10/2004             6,319.72             13,582.48           114.9
          2
 228           3110011055802           4/2009                86.46                274.44           217.4
 285           5998011451798          11/2006             1,266.58               5,609.34          342.9
 1
    Previous contract unit prices were adjusted as of October 2009 using the BLS producer price index
 (PPI) for aircraft parts.
  2
    This part is on the cost-based DLA-Honeywell long-term contract.


In addition, our recommendation to perform cost analysis and adjust pricing of a limited
sample of high-risk, high-dollar items before exercising the next option or pursue a fixed-
price incentive contract [Recommendation 2.b(10)] was designed to address this issue.
The Deputy’s agreement to implement a review of pricing each option year meets the
intent of this recommendation; therefore, no further comments are required.

               (7) Request a voluntary refund of about $5.4 million from Sikorsky
for profits caused by excessive escalation from 2008 through 2010.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, partially agreed. He stated that the
contracting officer negotiated the escalation factor based on the known market conditions
and the buying office substantiated that the resulting escalation factor was reasonable for
the out years. The Deputy stated that during the proposal evaluation Sikorsky provided
information from Global Insight Producer Price Index for Aircraft and Parts from 2005 to
2007, which reflected an average of 3.9 percent and escalation was forecasted to be 3.1
percent in 2008 and 1.8 percent in 2009.

                                  FOR OFFICIAL USE ONLY
                                            44
                                                                             . The Deputy
also stated that according to Sikorsky officials the forecasted escalation rates were based
on a decrease in energy costs and that energy costs actually increased significantly in
2008.
                                                                      . The Deputy stated
that a review was performed of Sikorsky’s actual escalation in 2008, 2009, and 2010 and
found that subcontract escalation was               from 2008 to 2009 and               from
2009 to 2010.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
While his comments failed to specifically address pursuing a refund, the comments detail
that AMCOM reviewed information related to labor and material costs to review the
effectiveness of the escalation factor. Again, contract escalation is added to protect both
the contractor and Government from significant fluctuations in labor and material costs.
It is not intended to create excessive profits or promote inefficiency. As our report
shows, AMCOM needs to base contract escalation on an appropriate economic index
rather than a flat yearly percentage to better control the reasonableness of contract prices.
Also, Sikorsky purchase history obtained during our review does not match the amount of
subcontract escalation claimed in the Deputy’s comments.

                                        . In addition, Sikorsky cost or price analyses we
obtained considered escalation for their supplier base at
annually. For example, the titanium blade sheath assembly had a fixed supplier price of
                              from January 2008 through December 2012. Sikorsky signed
the price agreement with its suppliers in October 2007, well before the material
certification date and also before negotiations of contract escalation occurred. To date,
using the actual quantities purchased, we calculate that AMCOM has paid $751,892 in
excessive profits for the titanium blade sheath assembly due to escalation. AMCOM
needs to pursue a refund for the titanium blade sheath assembly and other high-dollar
parts where                         was applied to Sikorsky’s supplier price. We request
that the Deputy to the Commanding General, AMCOM, reconsider his position and
provide additional comments in response to the report, which address the efforts to obtain
refunds for obvious pricing problems.

               (8) Account for and request a refund from Sikorsky for excessive
escalation for 2011.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, partially agreed. He stated the
contract will be reviewed to assess escalation projections for the remaining period of
performance of the contract.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
Although he stated that AMCOM will review escalation projections, the comments failed

                              FOR OFFICIAL USE ONLY
                                        45
to address whether AMCOM will account for excessive prices paid and obtain reduced
pricing for 2011. We request additional comments in response to the report, which
address how prices for 2011 will be reduced or a refund will be obtained.

              (9) Modify the contract to base contract escalation on an appropriate
economic index and correct prices to avoid excessive prices of $8.7 million in 2012,
before exercising the next option year.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed. He stated that for 2012,
AMCOM will negotiate with Sikorsky to achieve a reduced escalation based on the
current market conditions and 2012 prices will reflect this reduction.

Our Response
The Deputy to the Commanding General, AMCOM, comments are partially responsive.
However, the approach of merely reducing the escalation percent in 2012 will not fully
correct contract prices. As detailed in our report, the contract prices that were based on
the flat 4 percent escalation were overstated when compared with actual costs and should
be properly reduced. For example, the titanium blade sheath assembly price, as discussed
in our response to Recommendation 2.b(7), needs to be corrected based on Sikorsky’s
actual costs,                                            We calculate that if this price is
corrected, AMCOM will save about $3.3 million in excessive prices based on planned
contract quantities in 2011 and 2012. We request additional comments in response to the
final report discussing how prices for 2012 will be corrected.

              (10) Perform cost analysis and adjust pricing of a limited sample of
high-risk, high-dollar items before exercising the next option or pursue a fixed-price
incentive contract.

Department of the Army Comments
The Deputy to the Commanding General, AMCOM, agreed. He stated that a sample of
high-risk, high-dollar items will be reviewed via cost analysis before exercising the next
option.

Our Response
The Deputy to the Commanding General, AMCOM, comments are responsive. No
further comments are required.

3. We recommend that the Director, Defense Procurement and Acquisition Policy,
issue guidance to the contracting workforce that emphasizes performing cost
analysis of a limited sample of spare parts before exercising an option under a firm-
fixed-price contract.




                             FOR OFFICIAL USE ONLY
                                       46
Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed. He stated that the
Director of Defense Pricing will issue a policy memorandum advising the acquisition
community to perform cost and price analysis on a sample of spare parts before
exercising an option under a firm-fixed-price contract.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments are responsive.
No further comments are required.




                            FOR OFFICIAL USE ONLY
                                      47
Appendix A. Scope and Methodology
We conducted this performance audit from November 2009 through May 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Interviews and Documentation
We met with the Commander, CCAD, and the Director, Support Operations, AMC. We
interviewed and obtained cost support documentation from personnel at Sikorsky, Derco
Aerospace,                                    and DCMA, Sikorsky. We interviewed and
obtained acquisition planning documentation from personnel of the AMCOM
Contracting Center, Redstone Arsenal, Alabama. In addition, we interviewed and
obtained documentation from Sikorsky personnel in Stratford, Connecticut. We reviewed
the United States Code, FAR, and DFARS for guidance on acquisition planning, contract
pricing, and inventory. We used the Electronic Documentation Access System to obtain
and review the current CCAD/Sikorsky contract W58RGZ-09-D-0029 and modifications
issued from December 2008 through December 2010. We reviewed the escalation
applied to contract prices in the AMCOM contract with Sikorsky. We reviewed the
Defense Financial Accounting Service disbursement data to determine the dollars of
material purchased from 2008 through 2010. We applied the simple average of material
purchased for 2008 through 2010 as the material amounts for 2011 and 2012. We used
the BLS producer price index for other aircraft parts and equipment from 2008 through
2010. We also interviewed a Senior Cost/Price Analyst from the Air Force and used his
rational projections for 2011 and 2012 escalation in our calculations.

Nonstatistical Sample Selection
We selected a sample of 332 parts based on the top 80 percent of the total contract value,
which was selected from both the components and airframe material for contract
W58RGZ-09-D-0029. The sample parts represented $496.1 million of the total
$619.9 million of material on the contract.

Price Analysis
We obtained prior procurement history from Haystacks and DLA standard unit prices
from the DLA Office of Resource and Research Analysis for the DLA-managed items.
We used the Electronic Document Access System to identify prior acquisition prices for
the Army-managed items. We compared the current contract unit price and quantity with
previous procurements for Army-managed parts and the DLA standard unit prices with
DLA-managed items to determine the price increase.




                             FOR OFFICIAL USE ONLY
                                       48
Cost Analysis
We obtained and reviewed information other than cost or pricing data for 51 items from
Sikorsky and       of its subcontractors:                                      . We
selected the items based on significant price discrepancies from the previous procurement
or DLA standard unit price. We also considered significant quantity differences in our
selection. We selected five parts that did not have a procurement history, but had a
significant contract value. However, these five items were removed from our analysis
because we did not have procurement history to make a valid comparison. We performed
cost analysis on 46 items to determine whether the Government was paying fair and
reasonable prices for these items. We added the negotiated contract profit and contractor
burdens to the contractor costs to calculate a cost-based price when performing our
analysis.

Use of Computer-Processed Data
We relied on computer-processed data from DoD, DLA, and commercial sources. We
used data from the Electronic Document Access System to identify previous procurement
quantities and prices of the sample items. We also obtained the procurement history for
the sample items from Haystacks, a commercial system. We obtained data from the DLA
Office of Resource and Research Analysis to include inventory, demand, and pricing
data. The computer-processed data and procurement history data were determined
reliable based on a comparison with actual source documents. In addition, we have used
Haystacks for the past several audits and have not found any material errors or
discrepancies. We did not find errors that would preclude the use of the computer-
processed data to meet the audit objectives or that would change the conclusions reached
in this report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Army Audit Agency have issued
nine reports discussing topics related to the management of spare part inventories and
DoD public-private partnership agreements with private firms for depot maintenance.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-11-139, “Additional Oversight and Reporting for the Army
Logistics Modernization Program Are Needed,” November 18, 2010

GAO Report No. GAO-10-469, “Defense Logistics Agency Needs to Expand on Efforts
to More Effectively Manage Spare Parts,” May 11, 2010

GAO Report No. GAO-10-461, “Actions Needed to Improve Implementation of the
Army Logistics Modernization Program,” April 30, 2010



                            FOR OFFICIAL USE ONLY
                                      49
GAO Report No. GAO-09-703, "DoD Needs to Update Savings Estimates and Continue
to Address Challenges in Consolidating Supply-Related Functions at Depot Maintenance
Locations," July 9, 2009

GAO Report No. GAO-08-902R, “Depot Maintenance: DoD’s Report to Congress on Its
Public-Private Partnerships at Its Centers of Industrial and Technical Excellence (CITEs)
Is Not Complete and Additional Information Would Be Useful,” July 1, 2008

DoD IG
DoD IG Report D-2011-061, “Excess Inventory and Contracting Pricing Problems
Jeopardize the Army Contract With Boeing to Support the Corpus Christi Army Depot,”
May 3, 2011

DoD IG Report No. D-2010-067, “Public-Private Partnerships at Air Force Maintenance
Depots,” June 10, 2010

DoD IG Report No. D-2010-063, “Analysis of Air Force Secondary Power Logistics
Solution Contract,” May 21, 2010

Army Audit Agency
Army Audit Agency Report No. A-2008-0058-ALM, "Benefits of Public-Private
Partnerships," February 7, 2008




                             FOR OFFICIAL USE ONLY
                                       50
      Appendix B. Comparison of 2010 Contract
      and OIG-Calculated Unit Prices
                                                       2010 Unit Price
                                                                                Percent
Sample        NSN               Part Name          Contract        OIG         Difference1
  1      1615013900740    Titanium Blade Sheath    $18,391.26    $11,844.39          55.3
  2      1615011101491   Main Housing Assembly      41,241.69
  8      3040014158388       Shaft Assembly         25,758.73
 11      6115011241070       Rotor Generator        11,821.84
 12      3040010957220   Center Housing Assembly    12,548.19
 18      1615012259745            Stator            15,639.07
 28      1615010745153       Plate Assembly         16,423.35
 29      3020011391321            Pinion             6,073.48
 30      3110010854569           Bearing             3,189.31
 31      1650010957159     Hydraulic Amplifier       3,267.34
 32      1615013575089    Swash Plate Assembly      19,148.97
 34      1615011342507      Housing Assembly         6,005.15
 36      1615012212603            Rotor              7,514.31      2,378.772        215.9
 44      1615013764398      Housing Assembly         6,039.91
 46      1560011153589    Window Panel, Aircraft     3,819.72
 65      6115011456875      End Bell Assembly       10,371.25
 66      5320014560634          Pin Rivet               19.84
 68      1630010892850     Brake, Multiple Disk      3,709.97
 71      5977014329247   Ring Assembly, Electric    18,503.02
 79      1680013803819     Belt, Aircraft Safety     2,959.57
 83      3040013686667            Flange             3,838.00
104      6115011177281       Stator Generator        9,651.27
109      5320014561475          Pin Rivet               13.27
111      1680011138182         Cover, Seat            514.60
113      3120010906519      Bearing Assembly          578.61
117      2995011594660            Valve             10,720.68
121      5340010957378      Fairing Assembly          260.82
134      1560011735845        Cover, Access           709.48


                           FOR OFFICIAL USE ONLY
                                     51
                                                                                              2010 Unit Price
                                                                                                                                Percent
Sample              NSN                               Part Name                        Contract                OIG             Difference1
142            1680013837989                         Belt, Aircraft                     2,746.41
156            6115011177238                       Rotor Generator                       13,582.48
172            5945012129604               Solenoid Assembly, Second                        370.65
175            1615011026051                            Bracket                             107.38
198            5340013458847                             Button                               38.65
227            3120013770339                            Bearing                             506.47
228            3110011055802                         Ball Bearing                           274.44
234            1560011867122                 Panel, Structural, Aircraft                  2,332.86
248            5975014243604                    Cover, Junction Box                       2,393.41
255            1680012737591             Lateral Output Lever Assembly                    1,941.18
258            1560011259938                   Door, Access, Aircraft                     2,498.38
263            6220013068980                  Panel, Indicating ,Light                    3,778.74
267            3110009323679                            Bearing                             685.76
285            5998011451798             Printed Circuit Board Assembly                   5,609.34
288            3040012893594                              Shaft                          15,322.51
293            1560011259937                   Door, Access, Aircraft                     2,421.99
330            5340011014086                      Ring, Door, Flush                         284.46
332            1560011153667                 Panel Assembly, Ceiling                      1,457.15
1
The percent difference may vary slightly from the calculations used in the finding because those calculations were weighted averages.
2
We used the DLA standard unit price in our calculations of excessive profit for one item because an unacceptable quantity curve
was used to establish the basis of the contract price.




                                                FOR OFFICIAL USE ONLY
                                                          52
Defense Procurement and Acquisition Policy Comments





                              OFFICE OF
                                     OFTHE
                                        THE UNDER SECRETARY OF DEFENSE
                                              3000 DEFENSE PENTAGON
                                             WASHINGTON
                                             WASHINGT O N , DC 20301·3000
                                                               2030 1·3000




       ACQUISITION.                                                                    JUL 26 2011
      TECttl'lOLOGY
      TECI'I~OGY
     ...,..0
     ANO LOGISTICS
             LOGIST1CS


                                                        ACQUISITION &
            MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL, ACQUISlTlON
                             CONTRACT MANAGEMENT

            THROUGH: DIRECTOR, ACQUISlTlON
                               ACQUISITION RESOURCES AND ANAL YSIS                  Y~IS ~I :;11
                                                                                            ~11\\
            SUBJECT:           to DoDIG Draft Report ~ Pricing and Escalation Issues Weaken the
            SUBJECT: Response 10
                      Effectiveness of the Anny Contract with Sikorsky to Support the Corpus Christi
                      Anny Depot (Project No. D20
                                               DZOII O-DOOOCH-0077.00 I)

                   As requested, I am providing responses to the general content and recommendations
            contained in the subject report .

            Recommendation
            Reco mmendation 131:
            We recommend that the Director, Defense Procurement and Acquisition Policy (DPAP). issue
            guidance to the contracting workforce that emphasizes perfonning cost analysis of a limited
            samp le of spare parts before exercising an option under
                                                               under a8 finn-fixed-price contract.
                                                                        fmu -fixed-price contract.

            Response
            Respon se :                 Click to add JPEG file
            Concur. The Director of Defense Pricing will issue a policy memorandum advising the
            acqui sition community to perform cost and price analysis on
            acquisition                                               on a sample of spare parts before
            exercising an option under a finn-fixed-price
                                         ftnn-fixed-price contract.

                   Please contact
                           contact
            information is ,""uu·ea.
                           '"'Iuu·ea.




                                                         &A ~
                                                            Richard Ginman




                                                  FOR OFFICIAL USE ONLY
                                                            53
Department of the Army Comments





                                      DEPARTMENT OF THE ARMY
                                HEADOUARTERS, u.s.
                                              U.S. APJIi'(
                                                   APM'f MATERIEL COMMAND
                                           4400 MARTIN ROAD
                                     REDSTONE ARSENAl. Ai. AI.. 35898-5000



      AMCIR                                                                      JUO 22011

     __ Room
      MEMORANDUM FOR Department of Defense Inspector General (OoOlG), AlTN: • • •
             Room 300, 400 Army Navy Drive, Arlington, V
                                                       VAA 22202-4704

      SUBJECT: Command Reply to Draft Report: Pricing and Escalation T   Issues
                                                                          ssues Weaken the
      Effectiveness of the Army Contract
                                ConlIact With Sikorsky to Support the Corpus Christi Army Depot
                        D2010·DOOOCH·0077.ool) (01011)
      (project Number: D20IO·DOOOCH·0077.00I)


      I . The U.S. Army Materiel Command (AMC) has reviewed the subject report and the response
      provided by the U.s. Anny Aviation
                                 Aviation and Missile Command (AMCOM) written in collaboration
      with the U.S. Army Contracting
                         ConlIacting Command (ACC), ACC·Redstone Contracting
                                                                   ConlIacting Center.
                                                                                Ceoter. AMC
      endorses the response from AMCOM and ACC.

      2. TheAMC
      2.

                                     lick to add JPEG file

      Enel
      Encl
                                                       Executive Deputy to the
                                                         Commanding General




                                       Pmted on
                                       Pmted on   *®   Recycled
                                                       Recycled Peper
                                                                Paper




                                            FOR OFFICIAL USE ONLY
                                                      54
                                     DEPARTMENT OF THE ARMY
                                      u.s. ARMY CONTRACTING COMMAND
                                               3334A WELLS ROAD
                                      REDSTONE ARSENAl,
                                               ARSENAL, AL 3589B-5000
          REPLY TO
          ATTENnON
          ATTENTION OF·

                                                                                            JUL 19 2011
AMSCC·IR
AMSCC· IR


MEMORANDUM FOR                                        Acting Director, Internal Review and Audit
Cumpl iance Office, Headquarters,       u.s. Anny Materiel Command, 4400 Martin Road, Redstone
Arsenal, AL 35898
Arsenal.

SUHJECI': UODIG
SUHJECI": UOUIG Draft Report, Pricing and Escalation Issues Weaken the Effectiveness
                                                                         EfTectiveness of the
Army Contract with Sikorsky to Support the Corpus Christi Anny
Amy                                                       Army Depot (Project No. 02010-
0000CH·0077.0011)) (07000)
0000CH·0077.00


1. Reference
   Re ference memorandum
              m emorandum and dra ft report, f)epartment
                                             DepartmE!nt of Defense Inspector General,
2 June 2011, subject: Pricing and Escalation Issues
                                             Issue s Weaken the Effectiveness of the Army
ContTact w
         with
           ith Sikorsky to Support the Corpus Christi
                                              C hri sti Anny Depot (Project No. 0201
                                                                                D2010-DOOOCH-
                                                                                     O-DOOOCH-
0077.001)

2. Tht: Anny Contracling Cummanu
                         Cum manu (ACC) rt::::;pumst::
                                        re::;pumst:: lu   the rt::ft::rt:nct:d
                                                       tu lht:: rt::ft::rt:!lct::d documents
                                                                                   doc ulilents is enclosed
                                                                                                   enclosed..
                                 C
~ is llllllllllllllllllllllllllllllil.




End                                               ~~£---- Executive Director




                                         Printed or
                                         Printea      ®    Recyclea
                                                           Recycled paper




                                             FOR OFFICIAL USE ONLY
                                                       55
                               DEPARTMENT OF THE ARMY
                       UNITED STATES ARMY AVlAT10N
                                           AVIATION AND MISSll.£
                                                        MISSILE COMMAND
                                       5300 MARTIN ROAD
                                                    358~OO
                                REDSTONE ARSENAL AL 358&&.6000



AMSAM-IR
AMSAM-1R                                                                      JUL    7 2011


MEMORANDUM THRU                                           Jnterna1 Review and Audit
                                                Director, Internal
                           Malene, Command, Building 4400, Martin Road, Redstone
Compliance Office, US Army Maleriel
A.-senal,
Arsenal, AL 35898-5000

FOR Department of IDeleDse,                                of Inspector General, 400 Amly
                                                                                     Army
Navy Drive. Arlington, VA

          DODIG Draft Report, Pricing and Escalation Issues Weaken the Effectiveness of the
SUBJECT: DODIG
Anny Contract With Sikorsky to Support the Corpus Christi Anny Depot (Project No. D20 II0-
DOooCH-0077.ool) (AMC DIOII)
                         DlOll) (AMCOMNo. 20    2010L009D)
                                                   IOL009D)


1.                         AI-SGS.4-11 58-7000, 7 lun
I. Reference HQ AMC Tasker AI-SGSA-1I58-7000,     Jun 11
                                                      II , SAB.
                                                           SAB.

2. Enclosed are comments to tbe
                            the subject draft report from the US Army Aviation and Missile
                           Click to add JPEG file
Life Cycle Management Command (AMCOM). The report was reviewed and comments
provided by AMCOM Integrated Materiel Management Center, Corpus Christi Anny Depot,Depo~ and
Army Contracting Command - Redstone.




Ene!
                                 Deputy to the Commanding General
                                                          Genera1




                                     FOR OFFICIAL USE ONLY
                                               56
                             COMMAN D COMMENTS
                             COMMAND        COMM.E NTS
                                 DODIG Drsft
                                         Draft Report
                                                                    DC the
             Pricing and Escalation Issues Weaken the Effectiveness of tbe
                     Army Contract With Sikorsky to 10 Support tbe
                                                               the
                              Corp us C bristi Army Depot
                              Corpus
                        (project No. D2010-DOOOCU.oo77.001)
                        (projeet     D2010-DOOOCH-0077.001))
                                     D2010-DOOOCH-0077.001
                     (AMC No.   D1011) (AMCOM No.2010L009D)
                           No . DI011)            No. 2010L009D)


Finding. Spare Parts Pricing Problems:

"AMCOM officials did not effectively negotiate fair     fair and reasonable prices for
noncompetitive spare parts procured on the CCADlSikorsky
                                                 CCAD/Sikorsky contract
                                                                     contract. We reviewed costs
for 46 high-dollar
for    bigb-dollar pans
       bigb-doUar   parts valued at about $64.4
                                             564.4 million and identified pricing problems
with 28 of the parts valued
                      V'.t.Iued at about $34.7
                                         $34 .7 million.
                                                mill ion. These pricing problems occurred
because neither Sikorsky nor AMCOM officials performed perfonned adequate cost or price
                                                       perfonncd
analyser3 of proposed subcontractor prices that were used to support.
analyd
analyses                                                             support negotiated prices.
The pricing problems alsoa1so occwred
                               occurred because Sikorsky officials proposed.
                                                                       proposed, and AMCOM
officials accepted,
officia1s accept~ questionable cost or pricing data that had no relationship to the actual
price Sikorsky negotiated with its subcontractors.
                                       sulx:ontractors, Specific problems include:
                                                                             include:

                           Click to add JPEG file
• Sikorsky furnished certified cost or
                                    or pricing data that were not current, complete, and
  accurate at Ule
              the time of the material certification
                                       eerti fieation cutoff date (3 pans)
                                                                     parts) and used an
                               _from
  unacceptable quantity curve from              in detcnnining
                                               in  detennining
                                                   determining the cost basis (l part).

                                                      subcontrdctors resulting in
• Sikorsky accepted unreasonable price increases from subcontractors
 excessive pass-through costs (5 parts).
                                 psrts).

• Sikorsky
  Sikorsk--y consistently negotiated lower finn
                                           firm prices with suppliers after prices were
  agreed to with AMCOM and also proposed prices based on significantly lower
  quantities than it purchased (19 pans).
                                   parts).

     resuJ~ wc
As a result, we calculated that Sikorsky cbarged the Army SI1.8   $ 11.8 million (51.4 percent)
more than fair and reasonable prices ($34.7 million versus ve",us $22.9 million) for 28 pans
                                                                                          psrts
through Novemlx.or                             corrected. AMCOM officials will pay
        November 201 O. If prices are not corrected,
excessive profits of approximately $16.6 million
                                               million over the remaining 2 years of the
CCAD/Sikorsky contract. Duriog During the audi~
                                           audit, Sikol1!ky
                                                  SikolSky proposed ",funds
                                                  Sikorsky             refunds of about SI.O
                                                                                          $1.0
million to address pricing problems. Contract prices for 18 pans   psrts (15
                                                                   parts ( 15 higher and 3 lower).
valued at $29.7  m.iLlion, had minor differences (SI.3
          $29 .7 million,                            ($ 1.3 million less) from cost-based prices
of
of$31.0
or $31.0 million.      addition, through 2010,
         mill ion. In addition.            2010. we calculated    tbatAMCOM
                                                      calcu lated that AMCOM paid S5.4  $5.4
million more than nf..'Cessary
                    Ilf..-cessary due to excessive contract
                    necessary                       contrllct escalation rates that were
                                                                                     wcre not tied
      economic index and that AMCOM will pay excessive prices of
to an economie                                                              ofabaut
                                                                              about $$15.6
                                                                                      15.6 million
($6.9 million in 201 1 and S8.7                                               year.; or
                               $8.7 million in 2012) over the remaining 2 years      of the contract
if not corrected."




                                       FOR OFFICIAL USE ONLY
                                                 57
Recommendlltion         reeommend that the Commander, Anny
Recommendytion 2: "We recommend                       Army Aviation and Missile
Life Cycle Management Command:

       a. Develop procedures to ensure that contracting officers or other oversight
officials perform adequate price analysis in conjunction with cost analysis to determine
                                                                               detenninc
price reasonableness, obtain adequate support for large price increases, and ensure that
                                                                                    thai
multi-tier subcontractor prices are adequately evaluated."

Comma nd Co
Command  Commments:
             ments: Concur. The ACe-Redstone
                                 ACC-Redstone Contracting Officer utilized
DCAA and OCMA
OCAA     DCMA in performing cost/price analysis for the Sikorsky proposal of
technical, engineering and logistics support to include providing material for
approximately 7,000 parts. The Contracting Officer relied on certified cost and pricing
data submitted by the contractor in detennining fair and reasonable prices. DCMA
reviewed approximately 80 percent of the total dollars of  the bills of material, utilizing
                                                        oftbe
vendor quotes, cost/price analysis provided by the contractor, and purchase history.
Recognizing the need to focus on the evaluation ofofproposaJs             efficicncies in our
                                                     proposals and drive efficiencies
large dollar acquisitions, ACC-Redstone has established a ncw Directorate of cost/price
analysts. Significant training within the price analyst Geld
                                                        field is being conducted as the new
Directorate stands-up. This Directorate, in conjunction with the increased growth in
                                                 improVed focus in evaluation and pricing
DCMA within the cost/price area, will provide improved
of our negotiated procurements.
                  procuremenlS.
                          Click to add JPEG file
       b. "Instruct the contracting officer to :

         (1) Obtain Sikorsky refunds of
                                      ofabou.
                                         about SUM
                                               Sl.SM forNSN 1680-01-380-3819,5975-
                                                               1680-0 1-380-3819,5975-
01-424-3604,
01-424-3604,6220-01-306-8980,
                6220-01-306-8980, aod
                                   and 1615-01-221   -2603, whieh
                                         1615-01-221-2603,  which were priced with
                                            curve, and correct prices to avoid excessive
defective data or an unacceptable quantity curve.
                       52.0 million for contract years 2011 and 2012."
profits totaling about S2.0

Comma nd Com Comm    ents: Partially Concur. The DoDIG report indicated that their
                   ments:
recommendations relative to refunds were based on 28 items (originally
                                                                (original ly beginning with a
sample set of 46)-
               46). These 28 items reflect 13% of the .otal
                                                        total material
                                                              ma'eri.1 sold Wldcr
                                                                            under the fG
                                                                                       IG
audited
audi.ed Sikorsky contracts from 2008 through IuneJWle 2011 Sikorsky reviewed their pricing
data relative to items cited above and determined that errors were made in pricing NSNs
1680-01-380-38 19, Aircraft Safety BeLt,
1680-01-380-3819,                           5975~1-424-3604, June.ion
                                      Belt, 5975-01-424-3604,   Junction Box, and 6220-01-
306-8980, lndicating
            Indicating Light Panel. Sikorsky has submitted voluntary refund proposals
that are
     arc currently in review by the contracting officer. 11te
                                                          Ibe current individual
                                                                       indiv idual item
proposal refund .mounts                                                Bel~ $317,178.25,
                  amounts are Indicating Light, $167,248.29, Safety Belt,.
and Junction Box, $128.414.63.
                    $128,414.63. There is also an refund proposal under review for 25
items provided by Derco (a (8 subsidiary of Sikorsky) in the amount ofS219,371.
                                                                      of$219,371.
Additionally, at the request of the contracting officer, DCAA is currently performing a
Additionally.
post award audit on the contracts cited in this JG
                                                IG report. Any findings
                                                                 fmdings resulting from thc
                                                                                          the
DCAA review will be addressed.
                        addressed .

For NSN 1615-01-221-2603, Rotor, a review of Sikorsky
                                                Sikol1iky data indien.es
                                                               indicates that Sikorsky
                                               Deroo, and discussed it in great detail in an
reviewed the pricing from their subcontractor, Derco,


                                               2




                                     FOR OFFICIAL USE ONLY
                                               58
attempt to reduce the             proposed unit price. Documentation of discussions
between DCMA and Sikorsky indicates that on 2 April 2008, Derco sent a request for
explanation to                    why"
                           "as to why"               sold to the usa
                                                                 USG direct for one price (in
2007) and are selling to Derco at another price, which is going to the lJSG
                                                                        USG as well. Later
     day,
that day.                       hOur pricing to Dcrco
                      answered "Our             Derca is based on commercial pricing
                                                Deroo
                             our distributors and will
practices as is common with Our                    wilt remain as our quote." Research
also
a1so indicates that the            pricing is quantity sensitive and that            priced
the
tbe "worst case scenario."

                       sent a detailed follow-up
                 Deroo sents
On 7 April 2008, Derco                 follow- up request for clarification as to the
application of                                       pricing." In aII letter dated 25 April
                          "aftermarket/commercial pricing,"
2008,                          Derco with the information stated in the IG repon,
                 responded to Dereo                                           report, as
follows:




A review of Sikorsky detailed docwnentatioll
                               docwnentation of
                                              oflhe
                                                 the evaluation or
                                              oftbe               of this price. indicates that
                                                                          price, iodicates
    partics were aware of
all panics
    parties               the DLA negotiated price with
                       oftbe                                           and discussed
                                                                            discusscd it in
great detail
      dctailattempling           lhe reduced DLA pricing under this contract. The
             anempting to obtain the
documentation shows that Dereo
                            Derco repeatedly contacted
                                             conracted                  obtain a bcttl...i
                                                                     to obrain    better price.
Clearly,                  Click to add JPE
                    would only reduce pricing below the
agreed to guarantee to purchase minimum quantities
                                           quantit.ies of rotors and that
                                                                               if Derco
                                                                                  Dereo

pricing was based on "worst case scenario" due to the history of cancellation of orders
when CCAD did oot     purchase. The risks to guarantee minimum quantities could not be
                  not purchase.
substantiated given the
                    thc dynamic depot workload
                                        workJoad forecasts as well as funding restrictions
of the contract.

       However, fully recognizing the above comments,
       However.                               comments. the rotor quantities required for
the remainder of the contract will be purchased from DLA quantities as available.

              Obtain Sikorsky refunds of$219,37
        (2) ·Obtain
            ·"Obtain                  of$219,3711 for 25 Derco
                                                         Deroo
                                                         Dereo Aerospace pans and
                                                               Acrospace parts
            20 II and 2012 conlr'act
correct the 2011           contract unit prices."

Command Comments:
Com.mand    Comm ents: Concur. Sikorsky refund proposal for llJl  an amount of$219,371
                                                                             of$219.371 is
in review by the contracting officer and appropriate action wilJ
                                                            will be taken as required.

                        bave Sikofllky
        (3) "Procure or have  Sikorsky
                              S;kor.oky procure NSN 1615-01-221-2603     from
                                                                         fTom DLA
                                                      1615-01-221 -2603 [rom
Aviation to save about SI .3 million over the next
                       SI.3                   ncxtlWO
                                                   two years based on planned contract
quantities."

Command Com      ment,,: Concur. Quantities required for
            CommcDt!I:
                 mcDtfl:                              fo r the
                                                           thc remainder of the contract
will be purchased through
                  througb DLA as available as stated above
                                                     above;n  in (b) (I) response.

        (4) "Obtain refunds of about $7.0 million from
                                                  from Sikorsky for unnecessary



                                               3




                                     FOR OFFICIAL USE ONLY
                                               59
 pass-through costs and correct prices to avoid excessive profits of about S10.4
                                                                           $10.4 million
                                                                                 milJjon
forNSNs 1615-01-390-0740,
          16 15-01-390-0740, 1560-01-186-7122,
                              1560-0 1-186-7122, 1560-01-125-9937,
                                                             125-9937, 1560-01-125-9938,
                                                   1560-01 --125-9937,  1560-01 - 125-9938,
                                                                        1560-01-1  25-993 8,
    1560-01-115-3667_"
and 1560-0 1-115-3667."
    1560-01-115-3667."

   mmand
Co mm      Commen.s: Partially concur: Nonconcurwitb
       and Comments:                      Nonconcur witb    obtaiDing refunds based
                                                      with obtaining
on d:ata
   data outlined below, however, concur
                                 CODcur i.n reducing prices
                                 COnCur in           p rices prior
                                                             p rior to exercise of
                                                                                of2011
                                                                                   2011
                                                                                   201 2
requirements.
reqUirements.

         NSN 1615-01-390-0740,
               1615-01 -390-0740, Titanium
                                      Tilanium
                                      Tila nium Blade Sheath
                                                          Shealh
                                                          S bea lb Assembly - The  n,e DoOIG's
                                                                                          DeDlO's
evaluation that Sikorsky did not Dot negotiate fair and reasonable prices or performperfonn adequate
cost or price analyses for the titanium blade sheath even though the unit price increased
from $7,936.57 in 2007
                     2007101to
                             0SS17,OO4.39
                                17,004.39 in 2008 did not
                               $17,004.39                 nOlconsider
                                                              consider al    the data utilized to
                                                                        alll tl,e
price and negotiate this item. A review of Sikorsky'
                                                 Sikorsky'ss data indicates that cost pricc price
analysis was performed
               perfonncd in accordance with FAR 15.404-3(b).           10at
                                                                       That analysis for this item
                                                                       loat
                                                         lS.404-3(b). 1bat
was based upon the multi.ycar
                       multi-year 7 production contract (production and spares), which for
       reflected 315 items          total proposal value of
                                    lolal
                       ilems for a lola!                   0[                  _ Sikorsky
                                                                                 SikoBky conducted
a cost price analysis
                                                                                 Savings achieved
through these types
                typeS of negotiations are passed to the Government through both
                  ~-pares contracts. The cost price analysis.
production and spares                                   analysis, as well as             correspondence
to its supplier,
       supplier.                contradicts the premise that there was no review of supplier   suppli er
costs below         . In November 2006,2006. aa.letler
                                                leller
                                                letler from Sikorsky to
                                          to add JPEG f                       a.~sisting
                                                                              a!~s i s ting
                                                                  wouJd be assisting
                                           stated that Sikorsky would         assisti    ng       in a
fact- finding review of their proposal
fact-                            proposaJ                               This data and review led
to the
   Ibe long-term
        long-Ierm agreement
                   agreemenl

Additionally,
Additionally. the DoDIO's   conelusion that "the
                  DoDIG's conclusion                              shealh assembly
                                             ..the titanium blade sheath asscmbly is Ibe
                                                                                     the lop
                                                                                         top
dollar item on the contract with average
                                 averagc total procurements of ofabeut
                                                                 about $14M annually"
                                                                              annualJy" is
not tO!ally
nOI
Dot to\ally
    totally accurate. The
                      Thc aetual
                          acrual
                          aerual quantities
                                 quaotities sold from 2008 through June 2011 ",fleclaD
                                                                                ",flect
                                                                                reflect an
annual average  ofS6.0M. Totals for specific quantities purchased for each year arc
        avemge ofS6.0M.
reflected below:

        2008 - $ 3,056,330.96
                S1 2,060,419.80
        2009 - $12,060,419.80
        20 10 - $ 4,229,989.80
        2010
        2011 - $S 4,800,854.41
                   4,800,854.411
                   4,800,854.4

     DoDIG'
     DoDIG's
     DoDIO'ss assertion
The OoDIG's     assel1ion "By
                assenion  " By entering into                                    Sikorsky ensured
that it had no risk of loss due to signi
                    ofloss               ficant changes in the price of
                                   significant                           the titanium and
                                                                     ofthc
established predictable and increased             ovcr the course of tile CCAD/Sikorsky
                              inereased profits over
contract duc
          due to the escalation
                     escaJaLion clause in the prime contract" does notDot appear to be
supported by the documentation
supponcd           docwnentation in Sikorsky files. One fact that was not discussed in the
audit is disclosed in the Memorandum of Agreemcnt
                                              Agreement with Sikorsky/
                                             for the blade sheaths for the
                        This agreement obligates Sikorsky to purchase a minimum of        o
of the blades in the forecast quantity in the year of delivery. Should Sikorsky fail  fai l to

                                                   4




                                         FOR OFFICIAL USE ONLY
                                                   60
purchase       of the forecasted quantity of blades in any year,
                                                           year. they are required to
immediately purchase the excess quantity of raw material (titanium),
                                                            (titanium), Th.is
                                                                        nus fact places
substantial cost risk on Sikorsky 10
                                  to closely monitor the usage quantities or purchase the
excess material.

Additional  ly, the audit report
Additionally,             rcpon indicates that the raw material supplier,       , made a
significant profit based on the reduction in the cost of titanium after contract award.
                                                                                    award. In a
finn-fixed price envirorunent the ri
fum-fixed                           risk
                                      sk is the contractor's
                                                contractor' s for price increases as well as
price decreases. In the case of the raw material supplier at the time of price agreement,
the      pricing was comparable to a commodities market price, in which the contractor
couJd have seen significant material price increases based on the market conditions. As
could
stated in the audit, the prices for titanium ingot in 2006 - 2001
                                                               2007 (at the time of pricing for
this requirement) reflected significant
                              sig.nificant increases. The fact
                                                          fac t that the raw material market
saw reductions in price subsequent to award does not negate the    Ute overall value of finn-
fixed pricing. Should the price of titanium continued (0    increase) in a fixed price contract)
                                                         (0 increase,                   contract,
      would not have been able to increase his price to Sikorsky.

Sikorsky has developed a blade bonding fixture that has reduced the scrap rate for these
blade sheath assemblies.
              assemblies. In 20
                              2011       bas led to a reduction in the scrap rate for these:
                                 11 this has                                          these by
51 %. This represents a cost avoidance that is based on 8a reduction in the new purcbase
                                                                                    purchase
of blade sheaths due to the reduction in the scrap rate. Additionally.               oflhis
                                                           Additionally, as a result of this
                           Click to add JPEG file
effort, Sikorsky has ensured that CCAD is an organic source for repair of a heater mat
associated with this item. Historically, Sikorsky was the only source of  ofrepair
                                                                             repair for this
                                                                                        thi s
mat. With Ihe
mal        the organic capability
                        capabiUty at CCAD.
                                      CCAD, Sikorsky has 1lost
                                                             051workload, but
                                                                            bUI has helped
expand the depot's
            depot 's capabilitics and the industrial base.
                                                     basco

                  Items
                  Hems - The DoDlG report identified items with             a subcontractor to
Sikorksy,for
Sikorksy, for which" Sikorsky officials did not negotiate fair and reasonable priees
                                                                               prices or perfonn
adequate cost or price analysis to establish the reasonableness of the proposed prices for
                                                                                        fo r four
items procured from
                from                                                    resulting in excessive
pass-through charges." The items are identified as follows:
                                                      fo llows:

        NSN          1-1 86-7 122 PIN 70500-02068-050
              1560-0 1-186-7122
        NSN   1560-01-125-9938
              1560-01 -125-9938 PIN 70500-03050-058
        NSN   1560-01
              1560-OI -1 25 -9937 PIN 70500-03050-057
                      - t25
        NSN   1560-01-115-3667 PIN 70500-02063-059

         Per the DoDIG report, "Sikorsky's cost or price analysis. completed in July 2007,
         Pcr
was not adequate, merely recommended negotiation objectives from the              proposal,
and
rutd did not address whether the proposed prices were fair and reasonable. From our review
of prices for the fou
                  fourr items, it appeared that Sikorsky accepted         prices as proposed
and passed on the significant price increases to AMCOM."

        A rev
           review
              icw of Sikorsky's data relative to these parts indicates that Sikorsky completed
a cost price analysis (CPA) of                                                  proposal. The
CPA covered the spares portion only.
                                 only, which represented approximately
                                                                               . The analysis

                                                5




                                      FOR OFFICIAL USE ONLY
                                                61
was completed on a total material, material escalation.
                                                escalation, labor hour and direct labor fate
                                                                                         rate with
                                                                                              wi th
                                  establ ished for each category. No exception was taken to the
Optimal and Maximum targets established
proposed rates and factors after discussions with the Atl Atlanta
                                                             anta Oe
                                                                  OeAA
                                                                  OCAAAA office. A position was
ascerta ined on profit and Optimal and Maximum
ascertained                                Max.imum targets were established
                                                                    establ ished for each of
                                                                                          of the
         parts, including the four items cited in the report.
                                                       report. In
                                                               Tn total,
                                                                  total , the Optimal and Maximum
targets were approximately                          than proposal values respectively.

        Changes to planned quantities of
                                      o rthe
                                         the            parts in the CPA raised the
proposal value from                         The         in spares was part ora larger
proposal for         for      ~
According to Sikorsky's Negotiation Summary for                               dated 31
August 2007,
       2007. the proposal was negotiated as a whole and price
                                                        pri ce agreement of
                                                                         of$$
was reached on 23 July 2007.




        A compari  son of the final
          comparison          final negotiation amounts to the proposed amounts for the
                                                                             and spare parts was
included in the
            the Sikorsky negotiation summary. Overall, this negotiation
                                                                negotiation approach basically
enabled
cnabled Sikorsky to mcet      co mbined CPA Optimal target for
                     mect its combined                       fo r thc
                                                                  the entire     production and
spares subcontract program.

         Without reviewing
                 rev iewing the enUre
                                enHre negotiation summary package for the
production and spare parts program, there is an appearance that Sikorsky accepLed
                                                                               accepL ed the spare
                                                                               accepted
parts as proposed, without negotiation
                            negotiatio n as stated in the DoDlG
                                                            DeDlG report. However, the
negotiation summary reflects that acceptance of the               spares prices as proposed,
enablcd Sikorsky to meet its optimum overall negotiation goal for the combined production
enabled                                                                                productio n
and spares program and uhimately
                         ultimately pass the savings to t'O the Anny.


                                      indi vidual parts as presented in the CPA, the contracting
        Based on a review of these individual
officer w
        wilt
          ilt request that Sikorsky adjust
        will                                the pricing to be more in line with the vendor pricing.
                                    adj ust thc

       (5) "Consider
            " Consider using an economic
                                cconomic price adjustment clause in the foUow-on
contract lIDless
         Wlless acceptable long-tenn prices for titanium can be negotiated ."

Command Comments: Concur. Should    ShQuld titanium prices be in a state of significant
fluctuati
fluctuation                    adj ustment clause will be incorporated into the fo
          on an economic price adjustment                                          Uow-on
                                                                                 follow-on
contract.

        (6) "Request
            " Request a refund of about $3.3 million from Sikorsky and correct contract
prices for 2011 and 2012
                    20 12 (0
                           to avoid excessive profits totaling about $4.2 million for which
lower prices were negotiated with suppliers shortly after prices were negotiated with the
Anny."
Anny."

                                                  6




                                       FOR OFFICIAL USE ONLY
                                                 62
Command Comments: Partially Concur. The DaDIG          DoDIG report identified 19 parts for
potential refunds relative to negotiating lower prices after AMCOM contract was
awarded. They identified three general categories: (1) Sikorsky negotiated a lower price
with its supplier shortly after negotiating the contracl                AMCOM~ (2) Sikorsky
                                                   contract price with AMCOM.
proposed the price to manufacture the item then procured the item directly from a
supplier at a lower cost, or (3) Sikorsky negotiated a price with AMCOM using low
quantities then purchased larger quantities at a lower price. It is noted that FAR Part
2.101 provides this definition - "Cos,
                                   "COSI or pricing
                                             pr;c;ngda,a
                                                     dolo (10 U.S.c.
                                                              u.s.c. 23060 (h) (I) and 4/41 U.S.c.
                                                                                            U.s.c.
254b) means all faclS
                  facts that,
                        thai, as of     dale ofprice agreement, or, if applicable. an earlier dale
                                 oj the date
agreed upon between the parlies that is        c1o~ as practicable to the dote
                                         ;s as close                      date ofagreement
                                                                                   agreemenl on
price. prudenl
price. prudent buyers and
                        atld sellers would reasonably expect to affect price negotiations
                                                                               negolialions
significantly."
sign!fi,·ontly." lbe
                 The Government assumes that contractors' proposals are based on economic
                                                                                        econom ic
       quantiLies/buys. However, once evaluation/negotiations have concluded and the
order quantitieslbuys.
ordcr
contmctor's
contractor' s pricing is based upon accurate and complete data in accordance with his
certification as stated above, the fact that he may negotiate lower prices with some vendors
(in many instances cited by the DoDIG
                                   DoDlO's 's report 6 - 14 months after award) the contractor
has mel
     met the standard requirement for Cost and Pricing certification. This
                                                                         Thi s is a common
industry practice of doing business, as adjustments arc made from quotes to purchase orders
using Government reviewed and approved accounting and material cost estimating systems.
The material certification cost cutoff date
                                         datc for the bridge contract, W5SRGZ-OS·C-OO37.
                                                                       W58RGZ-08-C-0037. was
established as 8 April 2008. The follow-on contract reflected a material pricing certification
cutoff date or8
             0[8 May 2008.
                           Click to add JPEG file
         Each of the 19 items has been reviewed utilizing the data provided by Sikorsky
relative to their pricing of each part as well as the data in the Government files. For (he
                                                                                        the
                   makelbuy issues cited by the report as indicating pricing issues, there are
issues relative to makeJbuy
two items specifically discussed in the report as renecting "pricing issues." However, a
review was conducted of each makclbuy
                                  makelbuy item in the sample
                                                        samplc of28. Based upon this review it
     determined that Sikorsky has a disciplined process to review items categorized as
was detennincd
make/buy decisions. All pertinent
makelbuy                    pertincnt issues arc considered, such as capacity, demand, and
          lhat a qualified vendor can suppon their production with a quality part at time of
ensuring that
need. Thcre is an established forma l "gate" process. This makelbuy determination is decided
                                                                                          dccided
                                vice-president level and based upon a review of all data points
by a board established at the vice.president
as cited herein.
         herein . Each of  these issues is addressed below with some specific information
                        oftbese                                                   infonnation
                                                                                      audi~
provided for many of the items. For the four items specifically detailed in the audit..
explanations are below. For the remaining 15,    is, each was reviewed and summary
explanations are provided by category.

       (a)  Rikorsky negotiated a lower price with its supplier shortly after negotiating
       (8) Sikorsky
the contract price with AMCOM

                           Flush Doo.
          Sample 330 - Flu,h     Door Ring
                                      rung NSN 5340-01-101-4086
                                                  5340-aI-lOI-4086 - Per the DoDIG report,
"'The                                                 long~term agreement Sikorsky had with
'''The 2009 contract price of$273.52 was based on a long.term
its supplier at a unit price of        The material cost cenification
                                                          certification cutoff date was April 8,
2008. After negotiation of the CCAD/Sikorsky contract price, Sikorsky negotiated and
entered into a purchase order with a different supplier on June 13,2009, 1'0
                                                                           to support
requirements for the remainder of the contract at a         unit price (valid through Junc
                                                                                      June
20\3)."
2013)."

                                                 7




                                      FOR OFFICIAL USE ONLY
                                                63
         A review ofSiof Sikorsky'
                            korsky' s purchase order history for the flush door ring indicates that a
long-term purchase agreement was in effect for deliveries through 2009 at a unit price of
           In addition,
         . in                           were purchased under a separate purchase order with the
same supplier
       suppl ier at aII unit price of           on 11
                                                    J 1 March 2008, less than one month prior to the
material cost certification cutoff date. date. The purchase order history shows a purchase of
      from a different new supplier all     on 12 June 2009. This purchase was 8OOu11
                                                                                 about 144 months
after the material cost certification
                            cert'ification cutoff date.

        The price was established using an existing Long Term
                                                          Tenn Agreement as the cost basis.
There is no information in the purchase order history prior to the material cost certification
cutoff date that Sikorsky had quotes from or established prices with a new supplier.
However, AMCOM is working with DLA to dctcnninedetermine their ability to support this
requirement and if adequate quantities are available, this item will be removed from the
                                                   suppon this requirement Sikorsky will be
contract for future requirements. If DLA cannot support
requested to provide a reduced unit price in line with their reduced vendor price 0[of     .

         Make/ Buy Issu
         MakefBuy   woee - Sample 29 - Pinion NSN 3020-01-139-1321
                                                        3020-01-139-1321-- Per the DoDIG
report, "Sikorsky proposed this
                            thi s item as a make item to establish the 2009 CCAD/Sikorsky
                                                                              CCA D/Sikorsky
contract price of$5,839.88.
               0( $5,839.88. After the contract proposal was certified, Sikorsky then
negotiated a long-term agreement with                     •, which
                                                             whieh reduced its costs to
                                          ., which was valid from September 29,2008,
                                                                               29, 2008, to
December 31,
         31 , 20
              2012."
                 12."
                            Click to add JPEG file
        A
        A review of Sikorsky's purchase
                                  purehase order shows that there were no priced quotes
received for the pinion prior to the material
                                     material cost certification cutoff date. Purchase orders
were placed for various quantities on 29 September 2008, almost six months after the
                                   date..
material cost certification cutoff date

        The Sikorsky
             Sikorsl-y purchase order history and internal correspondence indicates that the
decision to buy the pin  ion rather than manufacture it was not made until several
                     pinion                                                severnl months after
price agreement was reacbed
                       reached for the CCAD/Sikorsky contract. Sikorsky delivered somc
                                                                                     some of
these items in 2008, which were manufactured pending the approval of the vendor. The
contracting officer will rcques1lhat
                          request that Sikorsky reduce the price
                                                           priee to be more aligned with their
vendor pricing for the remainder of the contract period.

                                            Rousing Assembly
        Makc/Buy - Sample 12 - Center Housing        Aillsembly NSN 3040-01.095--7220
                                                                      3040-01.095-7220 - Per
the DoOIO           "After negotiations with AMCOM,
     DoDJG report. "Ailer                    AMCOM , Sikorsky began 1to0 procure the item
directly from a supplier for a lower price. Specifically, Sikorsky proposed this item as a
make part to establish the 2009 CCAD/Sikorsky contract price of$     12,066 each. However,
                                                                 ofS12.066
Sikorsky began purchasing this item in September 2008 and locked in a price of             from
                                                                                           from
its supplier through June 2012."
                          20 12."

        A review of Sikorsky'
                      Sikorsky'ss purchase order history shows that
                                                               thal during the proposal
evaluation, the most recent priced quotes for the housing were received months after the
                                   dale. Purchase ordcrs were placed for various quantities
material cost certification cutoff date.                                         quanlities on
17 September 2008, almost six months after the material cost certification cutoff date.



                                                   8




                                        FOR OFFICIAL USE ONLY
                                                  64
         The purchase order history shows that in September 2004, orders were placed with a
supplier,                   , under IIa general purchase agreement for the housings. A Sikorsky
Executive Summary for approval of the Long Term Agreement (l..        (LTA)
                                                                        TA) with
dated 22 September 2008 states "'Ille
                                  'The 70351     · 08015-042 was a make
                                          703SI-080IS-042            male. part until July 2006
when Sikorsky qualified                         as 8a supplier source.
                                                                            This is an indication
of the risk Sikorsky has in developing qualified sources and obtaining delivery of quality
orthe
products on time as required. 1be summary further states "In consideration of the current
          needs, the buyer feels he has effectively prepared a contract to secure supply that is
business needs.
fair and reasonable to both parties and recommends your approval."

        Sikorsky's purchase order history
                                    hi story and the summary their buyer wrotc
                                                                         wrote in September
2008 to obta in approval for the LTA with a new vendor indicates that the housing was a
                                                                  lbc case documentation
make item at the lime of material cost certification cutoff date. The
                    LTA
associated with the L TA clearly identifies Rcquest
                                             Request for Quote, response and negotiation dates
                                  cost certification cutoff date. Negotiations with the supplier
several months after the material eost
oceurred in September 2008. The documentation confirms that the decision to change the
housing from a make to a buy was made after contract award and after careful and prudent
                                                                                     prudcnt
consideration.
considemrion. The contracting officer will request Sikorsky reduce the price to be more
representative of their vendor pricing for the remainder of the contract period.

        Samnle
        Sample 134. Accclill
                       AccCJ§ Cove.-
                               Cove ... NSN 1560-01.
                                             1560-01- 173-5845 PIN 62656 Per the DoDIG
                                                                                 DoDlG
                           Click to add JPEG file
"Sikorsky negotiated prices with AMCOM using low quantities, then purchased largcr
quantities at a lower price but did not pass on the savings to the Anny."

                DoDIO report.
        Per the DoOiO   repon, "Sikorsky' s proposed price for this item was bascd
                                                                               based on a
quantity that was not representative of the annual contract demands. The negotiated contract
price was based on a price               for a quantity of when AMCOM planned to procure
more than 350 annually. Sikorsky procured larger quantities at a much lower price
$          which inflated its profits for this
                                          this item.
                                               itcm. Sikorsky's purchase history for this item
ranged

         Response: A review of Sikorsky's
                                    Sikorsky'S purchase order history for the Access Cover
rcflects single digit purchase and quote quantities in the four years preceding 2008. The most
reflects
recent order at the time for a quantity                    was agreed to as the basis of cost for
the contract. The projected quantities for the CCAD contract for 2008 were six each and for
2009. four each
2009,        each., Years 2010 through 2012 projected larger quantities - 223 for 20 10 and
437 fo r both 201
               20111 and 20 12. The order for                       was not placed until 12
February 2009, about 10 months after the material cost certification cutoff date. 11\e
                                                                                    The contract
                                                                                          cantrllct
price was established using the most recent purchase
                                               purehase as the cost basis. Total quantities
purchased since 2008 are                                          A review ofDJA
                                                                             ofDLA stock
indicates 8a sufficient quantity to meet projected demands through 2012; therefore, DLA wil  willl
be requested to support the remainder
                              rcmaimier of this requirement.

          Sikorsky Negotiated Lower
                              LoweI' Price After Negotiations with AMCOM

       Sample 8 Shaft
                Sbaft A"embly                              7035 1-08131-048 - On
                      A... mbly NSN 3040014158388 - PIN 70351-08131-048
26 February 2007 Sikorsky received a signed quotation from    for a Not-to ExcC(:d
                                                                           Exceed

                                                9




                                      FOR OFFICIAL USE ONLY
                                                65
(NTE) unit price of$            for the shaft assembly. On 13 February 2009, Sikorsky and
        entered into a Memorandum of Agreement for                 for 2010 at a finn
                                                                                 fmn fixed
price             . The
                    loe attaclunent
                        attachment to the Memorandum of Agreement contained an NTE
letter contract for a quantity of             at an NTE unit price              Sikorsky's
                              letter contract was
tennination liability for the lener                                Order was defmiti7..ed
                                                                              definiti7..ed in
May 2009.

         As late as 13 February 2009, approximately        to months after the material cutoff
                                           approx imately 10
date. the NTE unit price                   was the established vA lue for the shaft assembly.
                                                                vAlue                assembly.
Sikorsky has vaHdated
                validated their payment to           for some assets shipped prior to
defmitization of the finn
definitization                price. reflected payment of the NTE price
                        firm price,                                                         The finn
negotiated unit price was not established until 12 May 2009. On 12 May, 2009, Sikorsky
issued an order 10 to        lo
                             to manufaclure
                                 manufacture 70351-08131-048 Main Rotor  ROlor Shaft Assemblies
at
al a unit price of               using Sikorsky supplied 70351-08131-108
                                                            70351 -08131-108 Main Rotor Shafts.
"!be
'1be value  of the -108 Shan
      valucoflhe           Shaft was added to the -048 Assembly manufacturing price of
                                                    currenl pricing history for the -108 shaft
             for a proper comparison. Sikorsky current                                       sbaft
shows a 20 November
              Novembnr 2009 quote for                               However, the history also
shows large quantities of -108- 108 shafts purchased in the 2003 timeframe at unit prices of
                                  With the addition of the cost             shafts, the cost basis
                                                             cosl of these sbafts,
 forthese
 for these reflected a range                                 . Sikorsky obtained cost
                                                                                    cosl and pricing
data from           for the pricing. Prior to definitization at a lower unit price. 85 items
were shipped under the contract to CCAD reflecting a lotal
                            Click to add JPEG file            total amount of                    .
Based upon the IG calculation
                       calculation of unit price for
                                                  for 2010,                           willl request
                                                      201 0. the contracting officer wil
Sikorsky reduce their unit price to be more in line with
                                                       wilh this calculation                  and/or
their negotiated vendor pricing for         remainder contract period.
                                    for the remainder

        Sample 66 Pin NSN 5320014560634. PIN liL204-6-7
                                             HL204-6-7

        A review of Sikorsky's data renects that on 8 March 2007 Sikorsky confinned
                                                                          confirmed a



                                                This order is dated approximately nine months
      the material
after thc materia1 cost cutoff date for the contract pricing. The purchase history shows
that the reduced pricing is directly related to significant increases in purchase quantities
that were not initial1y
               initially available to the contractor until after award of the contract.
Currently there are no projected quantities on the contract for    for 2011 and 2012;
                                                                                20 12; however,
                                                                                       howevcr,
should a need arise DLA will be contacted to determine
sbouJd                                                          ifthcy can meet the requirement.
                                                   detenninc iftbcy
           DCA has
Currently DLA     bas stock on hand to support the requirement. There is no current
contractual basis upln
contractual        upon which 1to0 obtain a8 refund for the items aJready
                                                                   already shipped under
                                                                                   under the
contract.


        Sample 109 PIN NSN
                        SN 5320014561475.
                           5320014561475, PIN HL204-6-6
                                              HL204+6

       The
       The contract unit
       "            unjt price for thi
                                   thiss item
                                         item was established using a8 unit price of
based on a long-Ierm
           long-term agreemenl
                     agreement with                dated 5 May 2006. On 24 February
                                                 10




                                       FOR OFFICIAL USE ONLY
                                                 66
2009. morc
      more than 10 months after the material cost cutoff date,
                                                         date. an order for a quantity of
    was placed with another supplier at a unit price of        004
                                                               On 4 May 2009, Sikorsky
placed an order for a quantity of

        The contract negotiated unit price was based on existing supplier pricing at the
time of the material cost cutoff date,
                                   date. The low price of         appears to be a one-lime
                                                                                   one-time buy
with that specific supplier. Sikorsky currently states they cannot provide the background
data as to why this was a onc·time buy. It                                   problem with the
                                             [t is assumed that there was a pcoblem
supplier, but it
              il is nOl documented in their records. A total qU:l.otity
                                                                 qu:mtity of 1,584 items has
been purchased under thistlUs contnlct
                              contract for a total dollar value of$20,523.84. Currently there
                                                                                          thcre
are no projected quantities on the contract for 20 11 and 2012; however, should a need
arise DLA will be contacted to detcnnine
                                   detcnmne if they can meet the requirement There is no
current contraclual
        contractual basis upon which to obtain a refund for the items already
                                                                        alrcady shipped under
the contract.

                  Bearing Assembly NSN 3.120010906519.
       Sample 113 BeariDg              3120010906519. PIN 70209-07901-102

         The contract unit price for this item was established using a WIit
                                                                       unit price of
based OD
       0 0 a long-tenn
             long-term agreement with                      , dated 4 December 2007
                                                                                2007.. On 28
July 2008, more than three months after the material cost cutoff date, an order for a
                  was placed with another supplier number at a unit price of
Subsequent quotes received in August 201  201 0 from the original supplier
are at a unit price of
arc
                              lick to add JPEG file
        The contract unit price was based on existing supplier pricing at the time of the
material cm
         cost. t cutoff date. The contractor's files do not show why the one time buy for
     was made with a supplier other than                          or why that supplier did not
                         purchases. Based upon this informatio~
quote for subsequent purchases.                        infonnatio~ the contract price reflects
the data in Sikorsky's
             Sikorsky' S file. 789 items have been provided WIder under the contract
                                                                            contrnct to date,
refleeting a total value of$602,274.43.
reflecting                 of $602,274.43. An estimated quantity of350 is projected for
2011
20 11 and 20 12 and a quantity of 145 has already been provided in 2011. The contracting
officer will request Sikorsky to adjust their pricing to be in line
                                                               Iinc with their supplicr pricing

        Samnle 175 - Bracket
        Simple                    1615011026051,. PIN 70101-11103·102
                     B....ket NSN 1615011026051       70101-11103-102

        Sikorsky'S  purcbase hi story for the bracket shows a 2004 unit price of
        Sikorsky's purchase
with a supplier as the bas is of cost for the contract. In December 2008, nine months after
witb
the material cost cutoff date,     contrac..1.or was able to obtain a
                         dale, the contractor                             unit price from
the same supplier when purchasing 8a combincd
                                         combined quantity of

        The contract unit price was based on existing supplier pricing at the time of the
                           The .contractor was able to reduce the unit
material cost cutoff date. The.contractor                           Wlil price
      wben the purchased qUWltities
      when                 quantities increased                       . A tota]
                                                                            total quantity of
2,809 has been purehased
                purehascd by CCAD to date, reflecting a total value 0[$456,786,
                                                                        of$456,786, unit
prices ranging from $99 to SI12
                            $112 from 2008 through 20 2012.
                                                         12. This quantity is significantly
                                                                                 significautly
less than estimated in the contract total projected quantities of
                                                               of7,081
                                                                  7,081 . However, there is
no       m inimum quantity for any item in the contract, only estimated quantities, which
DO finn minimum

                                               II




                                     FOR OFFICIAL USE ONLY
                                               67
places the risk on Sikorsky for pricing and issuing orders to their suppliers The
                                                                   (0 reflect prices more in
                    wiU request that Sikorsky revise their pricing to
contracting office will
line with their current vendor costs.


        Sample      Bellcrank A".mbly NSN 1680012737591.
        Sam ple 255 Beller.ok             168001273759[. PIN 70400·02209· 046
                                                             70400-92209-946

              Bellcmnk Assembly is one afthe items that had a large discrepancy in unit
         The Bellcrank
pricing based on Sikorsky'
                   Su.:orst..')"ss pW"Cbase
                                   purcbase history. After disclosure oflhe
                                                                       of the 2006 purchase unit
price                for supplier
                         supplicr number
                                      nwnber         and the        pun:hase unit price of
                                                          tl,e 2008 purchase
          for supplier number
                       nwnber            , Sikorsky and DCMA agreed to include this item as
one of  the 304 parts on the lnlerim
     oflbe                        lnterim Priced Item list, Exhibit C to the contract. According
           H·18. revised interim unit prices will be adjusted to reflect the final negotiated
to clause H-18.
fully burdened prices for these items via a subsequent contract modification. A fmal     final
negotiated price has not yet been dctcnnined
                                        detcnnined for this item; however, it wiU
                                                                               will reflect the
CUtTCtll supplier pricing and will provide economic order quantity pricing. This is
current
estimated to be complete by 31 July 2011.   20 11.


                     Item!!
                     Items

         Five of
               oflhc       Click to add JPEG file
after AMCOM negotiations, are
                                                10 audit as Sikorsky obtaining lower prices
                   the items, identified by the 10
                                                  parts, which are supplied through Derco (a
                                                  partS,
                              previousLy stated in this response,
Sikorsky subsidiary). As previously                                           is always
concerned that orders to be proposed to CCAD are at significant risk of cancellation
(based on their past experience with these). The                   items are proposed through
Derco as commercia1
            commercial itcms.
                          items. For many items,                dres
                                                                docs nOl
                                                                      not negotiate below the
proposed prices. Based upon this issue, AMCOM Contracting Officcr     Officer will request that
               work with Sikorsky to reduce the prices for the following
                                                                 fol1owing items for the
remaindl;..'T of the contract period.
remainder                     period .


        Sample 104 • Stator Rousia.
                            HousiDg Assembly. NSN
                                               SN 611501117728).
                                                  6115011177281. PIN 1588505·)
                                                                     1588505·1

        The contract unit price was based on a finn
                                               firm quote received from
                                            ) dated 26 April 2007. The quote was for a
quantity                                    According to Sikorsky's purchase order
history, a quote for a quantily
                       quantity of    housings at a unit price           was received from
                                         on 5 Fcb
                                               Feb 2009, nearly 10 months after the
                                                                                 the material
cost cutoff date. Subsequent orders were issued to                       at the unit price of
          This is a low demand item and to date
                                             dale only 20 items have been provided to
CCAD, reflecting a total value of$188.199.80.
CCAD.                            ofS188, 199.80. The projection for the remainder of20}!
                                                                                     of2011
       eaeh and for 2012 it is 11 each. The Contracting officer wilJ
is six each                                                      will negotiate a price
reduction for the remainder of the contract;




                                               12




                                      FOR OFFICIAL USE ONLY
                                                68
        Sample 156 - Rotor Generator NSN 6115011177238. PIN 1588541-1

        Dereo (8
              (a Sikorsky subsidiary)
                          subs idiary) accepted the                   commercial unit prices for
                   201 2. 1n
years 2008 through 2012.  In addition, Decca
                                       Derea was able to
                                                      \'0 negotiate a lower unit price of
            with              for 2008 only. This savings was passed along to the Anny
                                                                                  Army via
a lower Material Unit Cost for        reflected in the contract unit price for 2008 of
                            fo r 2008 renected
$8,814.39. However, for            2012 the unit prices from
                      fo r 2009 - 20J2                                     reflect a range
from $9,446 up to $1 1,572. Total quantity purchased from
                                                        fro m 2008 - 20 11 is 22 each for
                                                                     2011             ror a
total value of $258,852.56. Small quantities of this item have been purchased since 2008.
no additional quantities are projected for the remainder or20ll
                                                         of2011 , and there is a projection
for
ror 12 each in 2012.


        Sample
        Samp le 285 Printed Circ uit Board NSN 5998011451798. PIN 61-2020-1
                            Circuit

Dereo (a Sikorsky subsidiary) accepted the                   commercial unit prices for years
2008 through 2012. Total quantity purchased is 57 each for a total of$330,018.00,
                                                                        of$330,OI8.00,
reflecting a unit price range from $5,242 to $6,00 1.I . Contract reflects an estimated
quantity of 12 each for 20
                         201111 and CCAD has purchased 29. For 20 12 the Coniract
                                                                              contract projects
a quantity ooff 12; however, the quantity increase in 2011 is indicative of
                                                                          orthe
                                                                             the dynamic
requirements reflected in the depot process.
                            Click to add JPEG file
       (7) " Request a voluntary refund of about $5.4 million from Sikorsky for profits
caused by excessive escalation from 2008 through 2010."
                                                   2010,"

Command Co   Com  ments: Partially Concur. During the proposal evaluation, Sikorsky
                mments:
                             refl ected a review of the 44th111 Quarter 2007 Global
provided infonnation that reflected                                                 Insight Producer
                                                                             Globallnsight
Price Index for Aircraft and Parts for the period 2005 - 2007. This reflected an average
~calation of3
CM:alation     .9% and a forecast of3.1
           0[3.9%                    of3.1%    ror 2008 and 1.8%
                                           % ror200S            I.S% for 2009. Sikorsky shared with
                           thei r estimation was that the forecasted values were heavily based
the negotiation team, that their
on an anticipated significant reduction in energy prices in 2008 from the $75 per   pcr barrel of oil
                                                        of2008,
                                         fi rst quarter of
used in the 2007 forecast. During the first                200&, energy prices actually increased
by 33% as oil exceeded $100 per barrel. In the response,




       A review of
                 ofSikorsJcy's
                   Sikorsky's actual escalation on subcontract proposals was conducted
on purchases that were made in each of the three years from 2008, 2009, and 20 10. This

                                                 13




                                       FOR OFFICIAL USE ONLY
                                                 69
resulted in 3,213 "common" items (i.e. actually purchased in all three years). A sum of
the total unit costs incurred for each of the 3,2
                                              3,213  commOn items was compared to the
                                                  13 common
yearly totals from year to year. The subcontract escalation from 2008 to 2009 was
and from 2009 to 2010 was

                                       oUicer negotiated this escaJation factor based on the
        The Government contracting officer
conditions of the market known at the time, which as indicated above, was judged to
exceed some of   the indices projections. The market forces at play in 2008, which
              ofthc
projected increases in energy prices as well as the Sikorsky
indicated that 4% escalation was in line at the time. Additionally.
                                                      Additionally, a review of
                        incurred indicates an approximate 4% escalation.
                                                                escalalion. Based upon the
data reviewed by the contracting officer at the point of negotiations in 2008, it is
concluded that proper consideration was taken by the buying office to substantiate that
the resuhing
    resulting escalation
              escaJatioD factor was reasonable for the out years for the labor and malerial
                                                                                    material
estimated.

       For the 2012 prices.                 will be conducted with Sikorsky to achieve a
                       prices, negotiations wil1
                                  currcnt market conditions. The 2012 prices will be
reduced escalation based on the current
adjusted to reflect this reduction.

         (8) "Account for and request a refund for Sikorsky for excessive escalation [or
                                                                                     for
2011."
                          Click to add JPEG file
Command Comments: Partially Concur. The contract will be reviewed to assess  asscss
escalation projections for the remaining period of performance of the contract.

        (9) "Modify the contract to base contract escalation on an appropriate economic
                                                   of$8.7 million in 2012, before
index and correct prices to avoid excessive prices of58.7
exercising the next option year.
                           year.""

Command Comments: Concur. For the 2012 prices. negotiations will be
Commllnd                                                               he conducted
with Sikorsky to achieve a reduced escalation based on the current market conditions.
The 2012 prices will be adjusted to reflect this reduction.

       (10) "Perform cost analysis
                          anaJysis and adjust pricing of a limited sample of high-risk,
                        exerciSing the next option or
high-doUar items before exercising                 Or pursue a fixed-price
                                                                fixed-pri ce incentive
contract."

Command Comments: Concur. A sample of high-risk,            high-doUar items will be
                                                 high-risk. high-dollar
reviewed via cost analysis prior to exercise of the next option. This will also consider
                      escalation, index applicability, capacity requirements. make or buy
price reasonableness, escalation.
decisions, and DLA availability of items.

       General Comments: AMCOM and ACC-RSA concur in obtaining contractual
refunds or demanding price reductions on any items in which the contractor did not
provide full disclosure of data, obvious errors were made by either the contractor or the


                                             14




                                     FOR OFFICIAL USE ONLY
                                               70
Government, or the contractor was substantially negligent in establishing reasonable
prices with a supplier. However, in any fixed price arrangement where you are procuring
material of this magnitude, there will be parts negotiated after the fact that are lower in
cost and parts that increase in price. The key is whether the overall price andlor quantity
changes are substantial
             substantia l enough to warrant a change in either procedures or contract type.

Since this was a performance-based
                 perfonnance-based agreement requiring the contractor to bring the
necessary material to the depot as needed to support production, a business case analysis
was perfonned
     perfonncd prior to execution of the contract. It was
                                  oflhc               wa<; expected that material would
increase by approximately 25% due to procuring through a prime contractor at lower
quantities and requiring rapid tum times. To date, on the average material price increases
are as follows when compared to historical DLA and AMDF prices:

Year       DLA         AMDF
2009       10% increase 3% increase
2010
20 10                   90/0 increase
           16% increase 9%
20111
201        21% increase 14% increase

 Some of the benefits received include a 33 percent reduction in repair turn around time
                              overall production and increase in readiness for the
 which led to an increase in overaU
 Blackhawk platform. Based on the overall comparison the overall transaction continues

 over the pa~1
                          Click to add JPEG file
 to meet the parameters set forth in the Business Case
                                                    Casc Analysis. Nevertheless, experience
                                         contracts, new visibility or
          past several years with these contracts.                 of inventory
                                                                      invento ry across DoD
 and improvements in the overall supply base within DLA and AMCOM offer the
 opportunity to drive improvements in the process,
                                             process. create efficiencies and mitigate issues
 such as those identi.fied
               identified in this report. Some steps planned for future partnerships include
   more comprehensive partnership with DLA to require procurement of their inventory.
aa marc                                                                            inventory,
        available, sampling of high dollar prices annually prior to exercise of options,
 where available.
           ofpass-tluough
 reduction of pass-through costs on material procured through DLA anellor
                                                                        and/or material
                                                                                matcrial
 incentives that allow for sharing of substantial savings due to vendor cost reductions.




                                             IS
                                             15




                                    FOR OFFICIAL USE ONLY
                                              71
Defense Contract Management Agency Comments





                         DEFENSE CONTRACT MANAGEMENT AGENCY
                                      6350 WALKER LANE,
                                                     LANE. SUITE 300
                                    ALEXANDRIA.
                                    ALEXANDRI A , VIR GIN IA 22310-3241
                                                  VIRGIN




      DCMA-AQ
                                                                             ;:!c., (J(.
                                                                             Tl-{   (J C-   2 9-)
                                                                                              £-)   2-0 I (

      MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT Of  OF DEFENSE
                                                          DEFENS E
                                OF PRICING AND LOGISTICS ACQUISITION,
                     DI RECTOR Of                        ACQUISITIO N,
                    ACQU ISIT ION ANI)
                    ACQUISITION   AND CONTRACT
                                       CUNTRACT MANAGEMENT

      SUBJECT:
      SU BJ ECT: Response to FOU
                               FOUO O Draft Department of Defense Office of Inspector General
                 (DoDIG) Audit Report "Pricing and Escalation Issues Weaken the Effectiveness of
                 the Army Contract With Sikorsky to Support the Corpus Chri   sti Anny
                                                                         Christi  Army Depot" dated
                 June 2, 20 11 , Pmject No. Tl201 O,DOOOCH,0077.001
                                                  O-DOOOCH-0077.001


              We have attached the Headquarters, Defense Contract Managem  ent Agency' s comments
                                                                    Management
      to the recommendations as requested in the subject draft report
                                                               report.




                                                 ~/~--
                                                 ~/d'~/,-
                                                        . --
      Attachment                                 TIMOTH Y P. CALLA
                                                               CALLAHAN
                                                                    HAN
                                                 Executive Director
                                                 Co ntracts
                                                 Contracts




                                           FOR OFFICIAL USE ONLY
                                                     72
DC
DCMA     Response to ro uo Draft 00010
    MA Rcsponse                         DoDIG Audit Repo   rt " Pri cing and Escalation Issue))
                                                      Report                            Issues Weaken
the Effecti v ellt;:~
              t:ne ~))l:i orthe
                          o[the Anny
                                Army Contract With Sikorsky to Suppan
                                                                Support the Corpus Christi Anny
Depot" dated June 2, 20 11      IJ

L>CMA provides the fo ll owi ng comments to the draft report:
LJCMA                                                 report:

RECOMMENDATION 1;          I : We recommend that the Directo    r, De
                                                        Director,     fense Contract Management
                                                                   Defense             Manage ment
Agency, instruct the Contractor
                      Con tractor Purchasing System Divis
                                                       Di vision
                                                             ion Director to identi  fy the purchasing
                                                                               identify
system at Sikorsky, Stratford. Co  nnecticut, as high risk and schedu le a purcha
                                Connecticut,                                purchasing
                                                                                    sing system review
to detenn ine wheth
   determine        er Si
              whether     korsky cond
                       Sikorsky  conducts
                                      ucts subcontractor price and cost analyses before primepri me
contract negotiations
         negotiatio ns and whether quantity di  sco unts are being adequatel
                                             discounts              adeq uatelyy passed on to the
Government.

Response:
Response:: : Concur with recolIllm:;mJali    on.. DCMA l:onducled iJ<I Contractor
                            recolTllJ1ellUalion                        Conlractor Purchasing System
Re view (C PSR) at Si
Rt:view                korsky in January 20 11 . Deficiencies were noted, inc
                     Sikorsky                                                   includ ing one in the price
                                                                                    luding
anal ys is area.
           area. Sikorsky's Purchasing Systems has been been id entified as hi gh risk. A CPSR
                                                              identified                   C PSR has been
schedu
scheduledled for February 20
                          2U 12 to verit)'
                                     verify and validate the effectiveness of corrective actions
currentl y being imp lemented by Sikorsky. Our review will include,
currently                                                         incl ude, among othe r key CPSR
                                                                                               C PSR
elements, the timing of subcontractor
                          s ubcontractor price analysis and whether disco      unts are passed aalong
                                                                         discounts               long to
    gove mment
the government.


                               Click to add JPEG file




                                                    2




                                          FOR OFFICIAL USE ONLY
                                                    73
